<html>
<title> - MILITARY BUILD-UP ON GUAM</title>
<body><pre>[Senate Hearing 110-510]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-510
 
                       MILITARY BUILD-UP ON GUAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

   RECEIVE TESTIMONY ON THE MILITARY BUILD-UP ON GUAM: IMPACT ON THE 
              CIVILIAN COMMUNITY, PLANNINING, AND RESPONSE

                               __________

                              MAY 1, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
44-544 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     2
Bice, General David, Executive Director, Joint Guam Program 
  Office.........................................................    13
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bordallo, Madeleine Z., Delegate to Congress, Guam...............     3
Camacho, Hon. Felix P., Governor of Guam, Hagatna, GU............     6
Lepore, Brian J., Director, Defense Capabilities and Management, 
  Government Accountability Office...............................    22
Pula, Nikolao I., Acting Deputy Assistant Secretary for Insular 
  Affairs, Department of the Interior............................    18

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    51


                       MILITARY BUILD-UP ON GUAM

                              ----------                              


                         THURSDAY, MAY 1, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead and get started. Thank 
you all for coming. The committee will receive testimony on the 
military buildup on Guam, and the impact on the civilian 
community in planning and response to that buildup.
    We have five very distinguished witnesses today. I believe 
Governor Camacho is on his way, perhaps caught in traffic or 
somewhere. Congresswoman Bordallo, thank you for being here. 
General Bice, thank you for being here. Mr. Pula, appreciate 
your presence today. Mr. Lepore, thank you very much for being 
here.
    Guam is one of the most strategic locations in the United 
States. It's played an important role in our history for over a 
century. The people of Guam have demonstrated great loyalty to 
the Nation, particularly during the Japanese occupation, and 
today a new generation continues to demonstrate their 
commitment through their military service and sacrifice.
    The Defense Department's global restructuring of forces 
calls for a substantial expansion in Guam. The military and 
dependent population is expected to grow from 14,000 to 40,000, 
and tens of thousands of additional temporary and permanent 
civilians will be needed to provide supporting labor and 
services. This growth, which is perhaps as much as a 50-percent 
increase in population for Guam, will require the expansion of 
housing and roads, utilities, and schools and hospitals. 
Construction is to begin in July 2010, and to be largely 
completed within 4 years, at a cost of about $15 billion. This 
is a very ambitious schedule. One question we're dealing with 
today is, What is needed in order to meet these deadlines?
    I'm concerned that the Federal civilian agencies may not 
have the coordination and leadership needed to manage the 
civilian side of the buildup. The Secretary of Interior chairs 
the existing Interagency Group on Insular Areas, and this group 
has established a Guam Task Force; however, this structure 
appears to lack the authority needed to resolve many of the 
issues that will arise, particularly the funding needs.
    Another question is, Are steps needed to strengthen 
interagency coordination and leadership? The Defense Department 
has experience in planning and managing large military 
projects. It has established the Joint Guam Program Office to 
coordinate its efforts, and the Joint Military Master Plan is 
expected, in July. I'm concerned, however, that the Government 
of Guam lacks the capacity and resources to plan for and meet 
civilian needs unless there is additional Federal assistance.
    Where will Guam obtain the professional and financial 
resources to properly plan and manage and meet the needs of the 
civilian community? That's another crucial issue for us today.
    I look forward to the testimony this afternoon, to working 
together to help assure that this national security initiative 
will be planned and managed in a way that benefits the entire 
community of Guam, both the military and the civilian.
    I know Senator Akaka is here, and has taken a great 
interest in this issue, and let me call on him for any 
statement he has.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you and the ranking member for holding this very, very 
important hearing.
    I want to welcome the panel that's here today, and very 
good friends. I also want to say that I'm glad to see 
Congressman Ben Blaz here today. I want to say, Ben, aloha and 
welcome. To all of you, hafa adai.
    I look forward to receiving your testimony as the committee 
explores the impact that the DOD's plans for--have for an 
increased military presence, and what it will have on the 
population of Guam.
    I also look forward to the opportunity to discuss the 
planning and resources needs of the civilian community in 
preparation and response to that anticipated buildup. It is my 
understanding that, while the Department of Defense has 
established a broad framework for military buildup on the Guam, 
the DOD continues their planning process, including preparation 
of a Joint--Guam Joint Military Master Plan, which I understand 
is still in the DOD review process.
    Similarly, I know that the Government of Guam is still in 
the initial stages of addressing the many infrastructure 
challenges associated with a military buildup. I want to 
congratulate you for the work you have all done thus far. I 
know this process poses many inherent challenges and unexpected 
difficulties that you are to be commended for your efforts in 
doing this.
    As we move forward, it is crucial that DOD and other 
Federal agencies continue to work in close coordination with 
one another and Guam's local government. In particular, it is 
vitally important that each entity and contributing partner 
share a collective understanding, based on accurate and timely 
information, with respect, not only the military's, but also 
the community's, needs. Only by working collaboratively will we 
truly be able to plan accordingly, including ensuring the 
Federal resources are appropriately allocated to this 
undertaking.
    I also want to take this opportunity to express my support 
of H.R. 1595, the Guam World War II Loyalty Recognition Act, 
which passed in the House and is currently pending before the 
Senate Committee on the Judiciary. The people of Guam deserve 
no less than to be recognized for the loyalty and courage they 
displayed during the World War II occupation of Guam by the 
Japanese. I know the Representative here from Guam has worked 
hard on this bill, and we'll be looking forward to it--to have 
it here in the Senate.
    Once again, thank you, to the witnesses, for being here 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Akaka.
    Let me just recognize each of the witnesses here before 
they start their testimony.
    First is The Honorable Madeleine Bordallo, who is 
Congresswoman from Guam. We appreciate you being here, very 
much. Honorable Felix Camacho, who is the Governor of Guam, 
thank you very much for being here. General David Bice, who is 
the director of the Joint Guam Project Office here in 
Washington, thank you for being here. Mr. Pula is the director 
of the Office of Insular Affairs in the Department of Interior. 
Thank you for being here. Mr. Brian Lepore is director of 
Defense Capabilities and Management in the United States 
Government Accountability Office here in Washington.
    So, thank you all for being here. All of your--your 
complete statements will be included in the record. If each of 
you could identify the points you think are most important for 
us to understand--and we'll proceed in that way.
    Ms. Bordallo, why don't you start, and we'll go right 
across the table, there.

STATEMENT OF HON. MADELEINE Z. BORDALLO, DELEGATE TO CONGRESS, 
                              GUAM

    Ms. Bordallo. Thank you very much, Chairman Bingaman. My 
dear friend Senator Akaka, thank you for being here with us.
    Again, I would like to mention the presence of General Ben 
Blaz. He served in the House for four terms, and he has been 
very supportive of many of the issues facing Guam. So, I want 
to thank him for his attendance here today.
    Mr. Chairman, thank you very much for the opportunity to 
testify on the very important topic of the military buildup on 
Guam and its impact on our community. Over the next 6 years, 
the civilian and military populations on Guam will increase 
substantially as a result of the major military realignments in 
the Pacific region and alliance transformation with Japan.
    Of particular importance to Guam is the planned relocation 
of 8,000 marines and 9,000 of their dependents from Okinawa to 
Guam. Air force units are also being relocated from South Korea 
to Andersen Air Force Base. Additionally, Guam is expected to 
host a transit carrier presence, along with increased naval and 
United States Army activities. In the total, the realignment is 
estimated to cost roughly $13 billion through 2014.
    Beginning in fiscal year 2010 through the completion of 
these projects, the Department of Defense estimates that it 
could spend over $2 billion in military construction funds on 
Guam per year. The compressed timeline driving this substantial 
annual investment is a result of the Alliance Transformation 
and Realignment Agreement reached by the United States and 
Japan in October 2005. The compressed timeline in various 
infrastructure improvements that are needed on Guam pose 
significant challenges to making this buildup a success for our 
community. These challenges were identified by the GAO in its 
September 2007 report on DOD Overseas Master Planning.
    Despite the massive investment of military construction 
dollars, there is a critical need to concurrently improve the 
civilian infrastructure in Guam, and that is why I have called 
for the development of a memorandum of understanding between 
the Government of Guam and their Federal counterparts. These 
MOUs will be an important step toward identifying source of 
funds to pay for critical improvements to the civilian 
infrastructure that will be identified by Governor Camacho in 
greater detail.
    The MOUs will help the Government of Guam plan for the 
commitments that they will need from the Federal Government to 
make these infrastructure improvements. Moreover, the MOUs will 
ensure the continuity of this realignment process.
    As the administrations prepare to change, here in 
Washington, DC, we need to ensure that there is a roadmap that 
we can depend on. Guam cannot meet this timeline without 
commitments from the Federal Government. Regardless of who wins 
the Presidential race later this year, the massive buildup will 
continue to move forward. A lack of future commitments could 
very well jeopardize the necessary improvements that are needed 
to Guam's infrastructure. So, we welcome the committee's 
assistance in ensuring that the Bush administration provides 
its guidance for how the Federal Government will assist Guam.
    The Interagency Group on Insular Areas, or the IGIA, was 
established to make recommendations to the President regarding 
policy implementation actions of the Federal Government 
affecting the insular areas. I have encouraged Secretary 
Kempthorne and Secretary Winter to fully utilize the IGIA and 
continue working with other Federal agencies and departments to 
facilitate the development of these MOUs. Time is of the 
essence, and I hope that these MOUs can be completed before the 
end of the year.
    The military buildup presents many, many challenges, Mr. 
Chairman. Our community has environmental and social concerns, 
and we look to congressional oversight to ensure that the 
military buildup occurs in an environmentally sensitive and 
socially responsible manner. I believe further support is 
needed to complete a sound EIS under NEPA.
    There is one issue that I also want to raise, and Senator 
Akaka alluded to it, and that is the importance for the Senate 
to pass H.R. 1595, the Guam World War II Loyalty Recognition 
Act, which has previously passed the House by a two-thirds 
margin and is now before the Senate. If you want to know how 
you can be helpful, the short answer is to pass H.R. 1595. By 
bringing closure to this issue, we reaffirm that the United 
States values the sacrifices of the people of Guam. As we begin 
a new era in our security relationship between the United 
States and Japan, Guam seeks closure to a painful chapter in 
our history. The people of Guam stand ready to do our part for 
our national security, but we do not want to be taken for 
granted. So, passing H.R. 1595 in the Senate will be 
tremendously helpful.
    Mr. Chairman, I thank you for this opportunity to address 
you, and I look forward to your questions.
    [The prepared statement of Ms. Bordallo follows:]

     Prepared Statement of Hon. Madeleine Z. Bordallo, Delegate to 
                             Congress, Guam

    Mr. Chairman, thank you for this opportunity to testify today on 
the very important topic of the military build-up on Guam and its 
impact on our community. Over the next six years the civilian and 
military populations on Guam will increase substantially as a result of 
the major military realignments in the Pacific Region and alliance 
transformation with Japan. Of particular importance to Guam is the 
planned rebasing of 8,000 Marines and 9,000 of their dependents from 
Okinawa to Guam. Plans are also underway to relocate some Air Force 
units from South Korea to Andersen Air Force Base. Additionally, Guam 
is expected to host a transient carrier presence along with increased 
Naval and U.S. Army activities.
    In total, and according to the Department of Defense, the 
realignment is estimated to cost roughly $13 billion through 2014. 
Beginning in fiscal year 2010 through the completion of these projects 
the Department of Defense estimates that it could spend over $2 billion 
in military construction funds on Guam per year. The compressed 
timeline driving this substantial annual investment is a result of the 
alliance transformation and realignment agreement reached by the U.S.-
Japan Security Consultative Committee on October 29, 2005, and further 
ratified in May 2006. The compressed timeline and various 
infrastructure improvements that are needed on Guam pose significant 
challenges to making this build-up a success for both the military and 
civilian communities. These challenges were identified by the U.S. 
Government Accountability Office in its September 2007 report on 
overseas master planning by the Department of Defense and the 
implementation of the Integrated Global Presence and Basing Strategy. 
Despite the massive investment of military construction dollars there 
is a critical need to concurrently improve the civilian infrastructure 
on Guam.
    That is why I have publicly called for the development of 
Memorandums of Understanding between the Government of Guam and their 
federal counterparts. These MOUs will be an important step towards 
identifying sources of funds to pay for critical improvements to the 
civilian infrastructure including the need for additional public safety 
personnel, schools, teachers, improved water distribution system, 
increased wastewater system capacity, an upgraded electrical system and 
highways, to name a few of the many improvements that will be needed on 
Guam to sustain an increased population. The MOUs will help the 
Government of Guam plan for the commitments that they will need from 
the federal government to make these infrastructure improvements.
    Moreover, the MOUs will ensure the continuity of this realignment 
process. As Administrations prepare to change here in Washington, D.C. 
in January 2009, we need to ensure that there is a road map that we can 
depend on. Guam cannot meet this timeline without commitments from the 
federal government. Regardless of who wins the Presidential race later 
this year, the massive build-up will continue to move forward. A lack 
of future commitments could very well jeopardize the necessary 
improvements that are needed to Guam's infrastructure. Guam cannot meet 
these obligations without federal assistance, and we welcome the 
committee's assistance in ensuring that the Bush Administration 
provides its guidance for how the federal government will assist Guam.
    The Interagency Group on Insular Areas (IGIA) was established to 
``make recommendations to the President, or to the heads of agencies, 
regarding policy or policy implementation actions of the Federal 
Government affecting the Insular Areas''. I encourage Secretary 
Kempthorne and Secretary Winter to continue working with other federal 
agencies and departments through the IGIA to facilitate the development 
of these MOUs. As with everything regarding this build-up, time is of 
the essence and I hope that these MOUs can be completed before the end 
of the year.
    The military buildup will present challenges to Guam in many areas. 
Our community has environmental and social concerns and we look to 
aggressive Congressional oversight to ensure that the buildup occurs in 
an environmentally sensitive and socially responsible manner.
    There is one last issue that I want to raise with the committee. It 
is important for the Senate to pass H.R. 1595, the Guam World War II 
Loyalty Recognition Act, which has previously passed the House by a 
two-thirds margin and is now before the Senate. If you want to know how 
you can be helpful, the short answer is to pass H.R. 1595. By bringing 
closure to this issue, we reaffirm that the United States values the 
sacrifices of the people of Guam. As we begin a new era in our security 
relationship between the United States and Japan, Guam seeks closure to 
a painful chapter in our history. The people of Guam stand ready to do 
our part for our national security, but, we do not want to be taken for 
granted. Passing H.R. 1595 in the Senate will be a tremendously helpful 
step.
    Mr. Chairman, thank you for this opportunity and I look forward to 
your questions.

    The Chairman. Thank you very much for your testimony.
    Governor Camacho, thank you for being here. Go right ahead.

STATEMENT OF HON. FELIX P. CAMACHO, GOVERNOR OF GUAM, HAGATNA, 
                               GU

    Mr. Camacho. Thank you, Mr. Chairman and Senator Akaka.
    On behalf of the people of Guam, I thank you for this 
opportune to provide testimony on the military buildup on Guam, 
its impact on our community and our responses to planning and 
response.
    In Proverbs 24:3, it says, ``It takes wisdom to build a 
house and understanding to set it on a firm foundation.'' Mr. 
Chairman, Guam is a viable and relevant stakeholder in this 
endeavor. It starts with the understanding that our future 
begins with the decisions made today and in the near future. As 
we make the most of the present, we build for our future, one 
step at a time.
    In less than 4 years, the United States Marines will begin 
arriving on our shores, starting a migration of United States 
military servicemen and -women and their families. Construction 
workers, military contract workers and their families, and 
others are moving to Guam. What this means is that our island 
will absorb a 30-percent increase in population by 2012. This 
is the equivalent of adding almost 550,000 people within a 6-
year period to the great State of New Mexico, your home State.
    Guam is becoming the tip of the spear for our country's 
mission in this part of the world, where emerging threats and 
growing American interests rest. Just as the people of Guam and 
the nation--and the region have answered the call of duty, 
fighting in every war and conflict of the past century, we 
stand ready to support our country in this strategic mission to 
help improve the security of the nation.
    The measure of our commitment is seen in the efforts we've 
already taken to prepare our entire island community, both 
civilian and military. We've submitted scoping comments for use 
in the preparation for the environmental impact statement for 
the marine relocation from Okinawa. We've made needs 
assessments that quantify off-base improvements. We've 
reallocated funding from a pool of limited resources to develop 
master plans for the only civilian seaport in our 
transportation system. We've taken many other steps, with 
limited information and our finite resources, to prepare the 
way. If done well and with a true Federal commitment to the 
success of the buildup in Guam, our island will be well 
equipped--it will be a well-equipped military forward-operating 
location in the highly volatile Southeast Asia and Western 
Pacific regions.
    This future that we envision depends on the Federal 
commitment to a Federal responsibility borne by the United 
States-Japan Alliance, the Transformation and Realignment for 
the Future, as entered into the United States and Japan in 
2005, and efforts that Guam already is undertaking. Government 
leaders, the private sector, the civilian and military 
communities in Guam, have come together since 2006 under the 
Civilian-Military Task Force I created to focus on the buildup 
efforts.
    Even before the news of the marine relocation, our 
government has been building roads and schools, improving 
utility infrastructure, and preparing for normal growth needs. 
While the Government of Guam has made tremendous strides with 
limited resources, no American community can shoulder the 
challenges of a 30-percent increase in population to which this 
bilateral agreement consigns our people.
    For military construction on Guam, Japanese and United 
States Government contributions are grants that need no direct 
repayment. Guam, on the other hand, is expected to obtain debt 
financing to fund off-base improvements and to bear this burden 
alone.
    Mr. Chairman, the brave marines, soldiers, airmen, and 
sailors of our nation do not live within a fenceline in any 
United States community. We cannot disregard the fact that the 
condition of off-base infrastructure and social programs will 
affect their quality of life. They will travel on the same 
roads, utilize the same resources, and live in the same 
community we all share today.
    We've already taken great pride in ensuring that among the 
greatest memories of our military--of military service is the 
warmth and hospitality of the people of Guam. We call it the 
``hafa adai spirit.'' But the 30-percent population increase in 
a 6-year period places unprecedented, severe impacts on Guam's 
infrastructure and social programs. We want to be ready, so 
that we can continue providing America's front line with a home 
away from home without jeopardizing the basic services the 
Government of Guam provides to the local community.
    It is unrealistic for any American community to plan for, 
fund, and manage unfunded Federal mandates imposed by the 
bilateral agreement within the aggressive timelines without 
assistance from the United States Government. The delta between 
normal growth and military expansion must be covered by 
appropriations of the U.S. Congress. I have asked the military 
and Federal agencies for funding to implement an aggressive 
schedule of improvements. And we've received support from 
Federal agencies by way of program funding, including the 
United States Department of the Interior, through the 
leadership of Secretary Kempthorne, and the Office of Economic 
Adjustment of the United States Department of Defense. But, the 
scope of changes that needs to occur very quickly, we cannot 
``grant'' our way through this transformation. Significant 
commitments have yet been made. Only notional or predecisional 
information has been provided to assist our planning efforts. 
We've been told that the earliest funding cycle for 
consideration is fiscal year 2010 budget.
    Mr. Chairman, military construction is expected to start in 
2010, and Guam already is experiencing its initial effects 
within the cost of real-estate soaring, a tenfold increase in 
land-use permits, and the number of shipping containers 
arriving at the only commercial seaport expected to increase 
600 percent in 2 years to support the construction boom. Time 
is running out, and we need a true Federal commitment, sir.
    With time running out, I have to say that we are working on 
submitting our fiscal year 2010 budget request for improvements 
to the many infrastructure programs I've mentioned, and I 
humbly ask this committee to support the funding of high-
priority projects now, in the fiscal year 2008 and 2009 budget, 
so that our island can prepare for the growth occurring and 
that is yet to come.
    I want to say that I acknowledge that there are many 
challenges that Guam is responsible for. However, the people of 
Guam do expect the Department of Defense and the Federal 
Government to underwrite the cost to Guam's local community 
that are directly and indirectly associated with the DOD-driven 
requirements for the buildup.
    It is in Guam's and the Nation's best interests that this 
buildup produces sustainable outcomes for our island. An 
integrated approach, one that starts with Federal funding 
commitment now and that considers the people of Guam, our 
rights, our health and well-being, as well as the military 
value to our island, is crucial.
    I humbly ask for your support in funding the necessary 
infrastructure requirements, and I thank you for this 
opportunity, sir.
    [The prepared statement of Mr. Camacho follows:]

    Prepared Statement of Hon. Felix P. Camacho, Governor of Guam, 
                              Hagatna, GU

                              INTRODUCTION

    Hafa Adai Mr. Chairman and members of the Committee:
    On behalf of the People of Guam, thank you for this opportunity to 
provide testimony regarding the U. S. Military Buildup of Guam.
    Today, our focus is on the planned military build up of Guam that 
will affect our Nation, our region and most especially, our island. 
What is known thus far is that 8,000 Marines and their 9,000 dependents 
will be relocated from Okinawa to Guam. Navy, Army, Air Force and Coast 
Guard mission growth unrelated to the Marine relocation will bring 
another 12,130 active duty personnel and their dependents, which is 
approximately a 40,000 military population increase. An estimated 
20,000 immigrant workers will be needed to construct $15 Billion in 
improvements required by our Armed Forces. This investment will 
generate a projected 20,000 increase in Guam's civilian population from 
military contract employees and families and individuals moving to Guam 
to improve their quality of life. Altogether, a 30% increase is 
expected in the 170,000 population already resident in Guam. This is 
the equivalent of adding almost 550,000 people within a six year period 
to the great state of New Mexico, the home state of the honorable 
Chairman and the Ranking Member of this auspicious Committee. While 
these are staggering numbers for any community, the Bi-Lateral 
Agreement between the Government of Japan and the United States 
contains an aggressive implementation schedule that requires the 
Marines to begin leaving Okinawa within four years, by 2012, and to 
complete the relocation two years later, by 2014. It is this aggressive 
schedule that, not only demands the full commitment of the Government 
of Guam, the Department of Defense and the majority of Federal 
Departments and Agencies, but creates an anxiety and uneasiness amongst 
the community and those actively involved simply due to the sheer 
magnitude of the expected growth in population, but more importantly, 
the significant impact on Guam's infrastructure and social programs. It 
is unrealistic for any community in the U. S. to plan for, fund and 
manage unfunded federal mandates imposed by the Bilateral Agreement 
within the timeline without assistance from the U. S. government. 
Guam's planned military buildup will impact the lives of everyone who 
lives on Guam, both civilian and military communities. But just as the 
people of Guam and the region have answered the call of duty to join 
the U. S. Armed Forces in every conflict in this century and in numbers 
that surpass communities of similar size, so will the people of Guam 
carry out our responsibility as proud Americans to support our country 
in this strategic mission to help improve the security of the nation. 
We all share in this historic opportunity to improve the quality of 
life of all loyal American citizens in Guam while positioning Guam to 
play a more significant role in the defense of our country as a well-
equipped military forward operating location in the highly volatile 
Southeast Asia and Western Pacific regions.

Military buildup on Guam must become a National Priority accompanied by 
        a federal commitment to fund its direct and indirect 
        requirements both inside and outside military bases
    While the military buildup is expected to have a significant impact 
on Guam's economy, the security of our nation remains a federal 
responsibility. Guam does not have the sufficient resources necessary 
To implement this agreement, fund improvements required by military 
buildup outside military bases or absorb the up-front costs of 
preparing our island and bracing it for impacts we all know will come. 
Guam barely has enough to sustain the current level of operations and, 
therefore, will not have the resources to readily respond to the 
demands of the build-up. The Bilateral Agreement is a result of 
negotiations between two of the richest and most powerful nations in 
the world today. As a bilateral agreement between sovereign 
governments, its implementation must be a sovereign national priority. 
The Japanese Diet has already enacted policy and made appropriations to 
implement the Bilateral Agreement, while it appears the U.S. 
Government's approach is fragmented, especially with regard to funding.
    For U.S. military construction on Guam, Japanese and U. S. 
Government contributions are grants that need no direct repayment. Guam 
on the other hand, is expected to obtain debt financing to fund off-
base improvements or to enter into public/private partnerships (which 
require Guam to invest its resources in these partnerships) to support 
the buildup. The potential for overexpenditure similar to the 
experiences of other U. S. communities, such as Junction City, Kansas, 
is real, particularly since we have no control over the timing and cost 
of relocation. Our 1993 experience with the unfulfilled promise of 
relocation of U. S. Naval Forces from the Republic of the Philippines 
provides a relatively recent basis for exercising caution in committing 
significant resources. Guam has been placed in the unenviable position 
of having to seek out federal and other forms of financial support for 
a program that clearly is a national priority. As Lieutenant Governor 
of Guam Michael W. Cruz eloquently states, ``military buildup of Guam 
is analogous to a canoe that will capsize if improvements on-base are 
not accompanied by improvements off-base. Only through a holistic 
approach can balance be achieved and maintained in our journey 
forward.''
    Even though the military buildup is four years away, Guam is 
already experiencing its initial effects. Real estate prices have 
doubled. The cost of homes has tripled. There has been a 10 fold 
increase in the number of land use permit applications for new housing 
and commercial development. Our homeless population is growing, our 
hospital is already over-crowded, and in-migration is on the rise. In 
less than 2 years, the number of containers arriving at the Port 
Authority of Guam (Guam's only seaport) to support the construction 
boom is expected to increase by 600% per week.
    In 2006, I created a Civilian Military Task Force (CMTF) comprised 
of Guam's private sector, government leaders and military 
representatives. The CMTF is supported by 11 subcommittees covering the 
major areas of concern to our local community, with subcommittees 
consisting of members of Guam's general public, nonprofit 
organizations, the Guam Legislature, and all the agencies of the 
Government of Guam. The CMTF and its 11 subcommittees have submitted 
scoping comments for use in the preparation of the Environmental Impact 
Statement for Marine relocation; needs assessments that quantify off-
base improvements in support of military mission growth; and have 
engaged in teleconferences and presentations to various federal 
agencies represented at meetings of the Interagency Group on Insular 
Areas (IGIA) task force created by Presidential Executive Order on May 
8, 2003 and the Federal Regional Council (FRC), consisting of all 
federal agencies that provide oversight and assistance to Guam. We are 
reallocating funding dedicated to priority projects unrelated to the 
military buildup, to develop a master plan for the only civilian harbor 
in Guam that is expected to bear the brunt of in-coming military cargo 
and a critical chokepoint to support the buildup. A transportation plan 
for highways used by the military to transport goods from the harbor to 
military installations island-wide will soon be completed. Every aspect 
of life and living on Guam including health, education, welfare, public 
safety, natural resources, housing, labor, infrastructure, 
environmental protection, taxation, doing business requirements, and 
socio-cultural challenges are being assessed at tremendous local cost, 
to improve the quality of life of all Guam residents, including the 
military.
    And while we confront the growing challenges at home, the majority 
of the Federal Departments and Agencies only became aware of the 
Department of Defense's initiatives this past August. They have been 
scrambling to understand the Defense Department's initiative and how it 
translates into unforeseen or non-programmed requirements. As a result, 
we have collectively missed the Fiscal Year 2008 and 2009 federal 
budget cycles and may have difficulty securing funding under the Fiscal 
Year 2010 budget.
    During a November 2007 Interagency Task Force meeting in Washington 
D.C., Government of Guam representatives were informed by the Office of 
Management and Budget that Fiscal Year 2008 funding, required by the 
Federal Agencies and the Government of Guam to support the DOD move 
from Okinawa to Guam was ``virtually impossible.'' We were further 
notified that getting into the 2009 Budget would be ``almost 
impossible.''
    From an Executive Branch perspective, Fiscal Year 2010 is the 
earliest opportunity to request funding. As it currently stands, our 
FY2010 budget request of approximately $6.1 Billion dollars consists of 
the following:

  <bullet> $195 Million for Port Expansion
  <bullet> Present studies estimate $4.4 Billion for Roads
  <bullet> $666 Million for Power infrastructure
  <bullet> $192 Million for Water infrastructure
  <bullet> $593 Million for Education
  <bullet> $47.3 Million for Public Health
  <bullet> Preliminary study is an estimated $7 Million for A/E for 
        Hospital

    The Committee's support of this request is humbly solicited to fund 
high priority projects in FY2008 and FY2009 as well as our community's 
needs in order to fully support this buildup moving forward, beginning 
with a full budget request in FY10. I will make all Government of Guam 
resources and entities available to help the Committee better 
understand Guam's challenges and rationale for our budget request.
    I am encouraged by the greater interaction between the Government 
of Guam and federal agencies over the past six months. This interaction 
is critical to understanding what is needed to respond to this 
tremendous growth and the certain impacts to the Guam community now and 
for our future generations. Each federal agency has evaluated its 
programs in an effort to identify those that can be marshaled to assist 
in satisfying local needs associated with military buildup. However, 
existing federal program authorizations do not satisfy all needs as 
funding and coverage are limited. Various health care programs have 
funding caps imposed on the amount of assistance that can be provided 
to Guam while other programs are simply not extended to Guam. While the 
Government of Guam continues to work with federal agencies to improve 
the accountability of federally funded programs, I assure you that 
federal funding received for military buildup will go directly to 
identified priority infrastructure projects and that there will be full 
accountability and transparency.
    The Bilateral Agreement does not constitute a Base Realignment and 
Closure (BRAC) action normally characterized by a commitment of federal 
resources for implementation. We recognize that stateside communities 
surrounding realigned bases such as Holloman and Cannon Air Force Bases 
in New Mexico, Ellsworth Air Force Base in South Dakota, Bremerton 
Naval Station in Washington, Butte Army Reserve Center in Montana among 
others with representation on this Committee, have had to fight hard to 
obtain full appropriations to cover base and community needs. While 
this fight is not an easy one especially in this time of competing 
budgetary needs, the pursuit of funding by Congressional Delegations is 
consistent with policies established under BRAC law. The Guam buildup 
is not a BRAC action so obtaining required resources is even more 
difficult.
    To assist the Committee in understanding and hopefully supporting 
our needs, I directed the CMTF to develop our budgetary requirements 
based upon preliminary assessments of the challenges to be faced. With 
the financial assistance from the Office of Economic Adjustment, Guam 
has developed an initial master plan which identifies Guam's 
challenges. We have utilized in-house expertise via the CMTF and its 
subcommittees to complete the remaining tasks to finalize the Master 
Plan.

A true partnership between the United States and its territory of Guam 
        must be established and maintained to ensure program success
    Discussions between the United States and Japan with respect to the 
details of the Bilateral Agreement have been underway since 2006. 
Unfortunately, the Agreement was concluded without any input from 
Guam's leadership. Frequent mention by military officials is made of 
the inability to accommodate Guam's needs since negotiations on the 
subject matter have already been concluded between the U. S. and Japan. 
Financial shares identified in the Bilateral Agreement and subsequent 
negotiations appear to limit the use of funds to military--related 
construction only to support the Marine relocation.
    Use of Japanese contributions for infrastructure only on-base as 
opposed to using some funds off-base to allow efficiencies are an 
example. It will require less U.S. tax dollars to fund the incremental 
cost to improve and operate single integrated utility systems rather 
than building and maintaining separate ones. The funding needed to 
build and maintain a separate DOD power system to serve only 20% of 
total island demand would be better spent on upgrading the entire 
transmission and distribution system, benefiting both civilian and 
military ratepayers. This is consistent with existing federal law. Over 
$2 Billion in Japanese contributions are to be used by Special Purpose 
Entities that may not have to follow U. S. or Guam requirements 
regarding taxation, small business, or other ``doing business'' 
requirements. Guam must be provided a ``seat at the table'' even if 
only during U.S. delegation preparatory meetings in advance of 
negotiations with the Japanese.
    Of particular concern is the lack of information being provided on 
the buildup program as reinforced by reports from the U.S. Government 
Accountability Office. All information released thus far is either 
``notional'' or ``pre-decisional.'' While we understand the 
sensitivities of operating under the National Environmental Policy Act, 
the people of Guam must be full partners to appreciate the breadth and 
depth of buildup plans so that realistic alternatives and plans can be 
developed. Most information obtained is provided through the Joint Guam 
Program Office (JGPO) and while we enjoy a close working relationship 
between JGPO and the Government of Guam, local consensus is that 
information released by JGPO reflects decisions already made.
    As mentioned earlier, a smaller but somewhat similar effort to 
buildup Guam was undertaken by the U. S. Navy in 1993 when its bases in 
the Philippines were closed. At that time, the Navy proposed to 
relocate approximately 3000 personnel and dependents and invest $300 
Million over four years to support relocation. Today, DOD is proposing 
to relocate six times more personnel and invest fifty times more money 
over a similar period of time and they are spending less on mitigation 
planning and economic analysis than the proposed move from Subic to 
Guam.. In short, 15 years ago the Navy took greater care of Guam's 
needs for a proposed build-up that was 50 times smaller than what we 
are facing today. Although 90% of the comments received during the 
Navy's EIS scoping meetings dealt with socio-economic concerns, the 
analysis of socioeconomic issues is sorely limited. The current effort 
appears to be a simple collection of available data and where data does 
not readily exist, no effort will be expended to collect such 
information. The scope of work, which we have requested but have never 
received, is reported to be deficient in the development of multipliers 
to show the military's contribution to the Guam economy and the effects 
of the buildup on Guam's cost of living, real estate values, and 
overall quality of life. Job creation, retention and impacts on 
existing industries must be evaluated. Mitigation measures must be 
developed based upon objective analysis of data. The data collected and 
analyzed should allow us to develop long term plans to ensure that the 
few short years of double-digit growth associated with the Guam buildup 
can be managed to sustain the Guam economy. In Hawaii, the Honorable 
Senator Akaka's home state, a Supplemental EIS for Hawaii to absorb 
5,000 to 10,000 more military personnel based upon ``Grow the Army'' 
requirements to study base capacity to support long term decisions is 
being undertaken. We ask that the military buildup EIS thoroughly 
analyze the capacity of the local community to support mission growth.

Various statutory and administrative enablers will ensure program 
        success
    For the military buildup of Guam to be truly successful, the 
following initiatives must be put in place:

  <bullet> The Military must be a customer of Guam's infrastructure 
        systems.
  <bullet> The military has indicated that level of construction that 
        Guam can handle is about $1B since largest level of 
        construction experienced in the past is $800M. However, if 
        military informs public about types of business services 
        needed, private sector will respond.
  <bullet> Military authorized to use alien labor and cap on alien 
        labor will soon be lifted however, need increased funding to 
        train local labor force in order to achieve long term benefits 
        and efficiencies from a life cycle perspective.
  <bullet> Support legislation to appropriate funds for the Guam 
        Buildup. We cannot grant our way through to meet the demands 
        needed today.
  <bullet> Involvement of CNMI and other regional jurisdictions for 
        workforce development and increased tourism opportunities
  <bullet> Military has tendency of stationing active duty personnel on 
        a 3 month (or less than 180 days) rotating basis which prevents 
        Guam from collecting income taxes as provided under Section 30 
        of the Organic Act. Section 30 must apply annually to billet 
        not length of time of TDY personnel
  <bullet> Military housing payments must be provided in a fashion that 
        does not create gap in ability to provide affordable civilian 
        housing or increase Guam's homeless population.
  <bullet> Japanese financial contributions that will be used by US 
        must be required to follow federal law (small business, social 
        security taxes, etc.)
  <bullet> Special purpose entities established by Japanese must 
        provide benefits to Guam
  <bullet> Maximum opportunity to obtain contracts must be provided to 
        local and small businesses.
  <bullet> Military must be required to enforce local doing business 
        requirements to the maximum extent practicable.
  <bullet> The USDA Federal Loan Guarantee and Critical Access Hospital 
        programs to provide additional technical assistance to 
        Government Guam for funding submission requests for critical 
        infrastructure projects.
  <bullet> Mid-decade Census conducted to adequately address population 
        growth as a result of the military buildup.
  <bullet> Given the likely high impact in population on the northern 
        island, designating Dededo and Yigo villages as rural 
        development.
  <bullet> Lift Medicaid and Medicare reimbursement caps, as well as 
        increase formulary cap grants to Guam.
  <bullet> Military ensure that adequate safety officers on ground 
        beginning from the construction phase.
  <bullet> Fully reimburse Guam for compact impact aide

Conclusion
    While Guam's proximity to Asia reduces the tyranny of time and 
distance for military operations, our distance from policy makers in 
the U. S. creates an ``out of sight--out of mind'' perception in the 
minds of the American citizens residing in Guam. Initiatives taken by 
Congresswoman Madeleine Z. Bordallo to bring Congressional Delegations 
to Guam have helped reduce this distance and change local perception. 
Congresswoman Bordallo has brought attention to our needs and we invite 
members of this Committee to come to Guam to view first hand our 
challenges and our hope for a better future.
    No doubt, we all have many hurdles to overcome. Given the magnitude 
of this endeavor and the short time within which to accomplish it, 
success requires that all of us work collaboratively and that we view 
each other as partners working toward a common good for the security of 
this great nation.
    As Governor for the people of Guam, I acknowledge there are many 
challenges that are Guam's responsibility--challenges that are results 
of our current program levels and the natural growth of our island 
community. We are already taking steps to address those issues. 
However, I do expect DOD and the federal government to underwrite the 
costs to Guam's local community that are directly and indirectly 
associated with DOD driven requirements for the move of the 3rd Marine 
Expeditionary Force to Guam and the requirements of the other military 
services including the National Guard and Reserves.
    It is in the best interests of the Nation and the people of Guam 
that the military buildup produces sustainable outcomes, both 
physically and socially, for our island. An integrated, holistic 
approach that considers the people of Guam, our rights, our health and 
our well being as well as the military value of our island is crucial.
    DOD's unprecedented expansion is being undertaken in our patriotic 
American community. Today, the people of Guam are overwhelmingly in 
support of a greater military presence on our island. They believe that 
bringing the military back is good for our nation's defense and our 
people's prosperity. But that goodwill must not be exploited at the 
expense of the people of Guam. While the opportunities resulting from 
the military build up are promising, the challenges we face in 
preparing for it are equally burdening.
    Many of the Administration and federal agency officials we have 
worked with since 2006 may leave office over the next few months. This 
fact poses a whole new set of challenges that could be overcome by the 
Congress in setting overall policy that transcends administrations.
    Guam is the only player in the build-up that knows what is 
necessary to adequately accommodate a U.S. national decision. Guam does 
not have the resources to meet the military's needs. Our small island 
only has enough to sustain our normal population growth rate of 6% over 
10 years. Now we are being told to prepare for a 30% increase in 4 
years and it's up to us to find the funding. This unprecendented growth 
is beyond our ability no matter how willing we might be to accept the 
responsibility being asked of us. If we are to succeed in this 
partnership, Guam must become a true partner with our requirements 
carrying the same weight and consideration as the military 
requirements.
    On behalf of the people of Guam, I humbly ask for your support in 
funding the necessary infrastructure requirements. We commit our 
resources to you to accomplish this task.
    Thank You.

    The Chairman. Thank you very much.
    General Bice, go right ahead.

STATEMENT OF GENERAL DAVID BICE, EXECUTIVE DIRECTOR, JOINT GUAM 
                         PROGRAM OFFICE

    General Bice. Mr. Chairman, Senator Akaka--pleased to 
appear before you on behalf of Assistant Secretary of the Navy 
for the Installations and Environment, the Honorable B.J. Penn.
    The fourth realignment effort in Guam is a dynamic program. 
And while there have been tremendous progress, one thing 
remains constant: this is an undertaking of substantial 
proportions, one that will have far-reaching effects throughout 
the region.
    The program will require the support from multiple 
partners, including the Government of Guam, Commonwealth of 
Northern Mariana Islands, the Government of Japan, our combined 
services, and applicable Federal agencies. It's important for 
all of us to understand that this major force realignment 
project is vital to our strategic posture on the Pacific-Asia 
theater and the security of our Nation. This multifaceted 
relocation effort will ensure United States forces are 
positioned to defend United States Pacific territories and the 
homeland, maintain regional stability, maintain flexibility to 
respond to regional threats, project power throughout the 
region, defend Japan and other allies by treaty agreements, and 
providing capabilities that enhance global mobility to meet 
contingencies around the world.
    DOD has expended significant time, manpower, and financial 
resources to push this program forward. The Joint Guam Program 
Office identified $57.4 million between fiscal years 2007 and 
2008 for the relocation of forces to Guam. The services have 
expended $35 million to date. We have held two industry forums, 
three interagency task force meetings, and three environmental 
partnering sessions. We're working closely with the Department 
of the Interior to assist the Government of Guam in, No. 1, 
identifying its core requirements, and, No. 2, matching up 
those requirements with potential Federal agencies that may be 
able to provide the necessary resources to address Guam's 
critical social services and infrastructure needs.
    As the agency responsible for administrating United States 
territories, the Department of Interior's Office of Insular 
Affairs has become our partner to increase awareness and action 
by other Federal departments who can provide assistance to 
Guam. Secretary Kempthorne has expressed his support for Guam 
and for the program, noting that what is good for Guam is good 
for the United States.
    The prioritized funding requirements list for Federal 
agencies that is being developed is a big step forward in 
ensuring that these GovGuam challenges are met. Simply put, 
Federal agency support to the Government of Guam translates to 
Government of Guam support to the Department of Defense in a 
quest to carry out the national defense vision for the Pacific 
region. As Congresswoman Bordallo, Governor Camacho and 
Representative Tenorio have previously attested in meetings 
with us, community support for a force realignment program is 
strong. Residents of Guam and the surrounding areas are proud 
Americans who serve and defend our--the United States and our 
common values. I'm certain that the vast majority, if not all 
in this room today, would tell you that the United States 
commitment to prosperity, security, and its ability in the 
Asia-Pacific region should remain as steadfast.
    As a result of our integrated efforts, we're pleased to 
report that Department of Defense Office of Economic Adjustment 
has, thus far, provided nearly $1.7 million in grants to the 
Government of Guam to support key planning and impact studies. 
As part of its ongoing technical and financial assistance, OEA 
has also agreed to incorporate a financial impact analysis that 
will be tailored to GovGuam's specific needs and phased in a 
manner that reflect DOD's environmental and social-economic 
estimates. OEA is also working to bring community planning 
experts in a process to advise GovGuam on growth management.
    Another outcome of our partnership--of our efforts is a 
partnership between GovGuam's Port Authority and the Department 
of Transportation's Maritime Administration. Both entities are 
now working together to achieve GovGuam's goal to support the 
military realignment, with the ultimate vision of becoming a 
key intermodal transportation hub in the Pacific Rim region.
    As a result of interagency meetings with the local 
Department of Labor--establishment of a training program 
designed to prepare residents with the appropriate skills to 
make them marketable for the military buildup. Additionally, 
the Department of State is putting forth efforts to build a 
data base of available work forces in the Pacific Islands that 
could provide a win-win solution to their economic needs and 
DOD work force needs.
    In closing, I would like to point out that the military 
realignment on Guam would bring unprecedented growth and 
opportunities to the island, and also unprecedented challenges. 
The quality and reliability of infrastructure and social 
services on Guam have become increasingly inconsistent over the 
years. Through DOD's environmental studies and planning 
efforts, longstanding issues with civilian systems on Guam, 
ranging from healthcare to education, utilities to roads, have 
been uncovered. These issues are not new and will only become 
increasingly problematic over time. Overcoming these 
widespread, diverse challenges requires the support and 
commitment of resources from across the Federal Government. In 
order to address both Guam's infrastructure needs that can help 
facilitate a successful military program and to assist the 
community--civilian community to grow stronger instead of 
becoming paralyzed by an unmanageable influx, Federal support 
is critical.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Bice follows:]

  Prepared Statement of General David Bice, Executive Director, Joint 
                          Guam Program Office

    Chairman and members of the Committee, I am pleased to appear 
before you today and have this opportunity to provide you an overview 
of the Department's effort to relocate Marines and their dependents 
from Okinawa to Guam, the effects this effort will have throughout the 
region, and what we are doing to carefully plan the realignment effort. 
The program will require support from multiple partners including the 
Government of Guam, Commonwealth of the Northern Mariana Islands, the 
Government of Japan, our combined Services, and the Federal government.
    It is important for all of us to understand that this major force 
realignment project is vital to our strategic posture in the Pacific 
theatre and the security of our nation.

                         COST-SHARING AGREEMENT

    The financial aspect of the Marine move from Okinawa to Guam 
involves a cost-sharing arrangement between the U.S. Government (USG) 
and the Government of Japan (GOJ). Recognizing that Japan will also 
benefit from rapid relocation, which will allow our forces to move to 
less densely populated areas of Okinawa, the GOJ has agreed to bear a 
substantive amount of the costs for the Marine move from Okinawa to 
Guam.

  <bullet> Japan will provide up to $6.09 billion of the total $10.27 
        billion up-front construction cost for the realignment, 
        consisting of:

    --$2.8 billion in direct payments to the U.S. for operational and 
            support infrastructures
    --$3.29 billion in equity investments and loans to special purpose 
            entities that will provide housing and utilities

  <bullet> The United States is responsible for the remaining $4.18 
        billion and any additional costs.

                       STRATEGIC BENEFITS OF GUAM

    Guam's unique location makes it a strategic choice to support the 
realignment of Pacific forces. It is able to provide a position for 
carrier group maintenance and re-supply. Basing Marine Corps forces on 
Guam makes strategic sense for several reasons: it enhances the 
survivability of our forces by dispersing them; it spreads our force to 
better cover security cooperation and contingency response requirements 
for the vast Pacific region; and it positions forces on U.S. territory, 
removing the requirement to coordinate operational and training issues 
with a host nation.
    Increasing U.S. military capabilities on Guam will fully leverage 
transformational advancements of the joint force and will create a 
central hub for the regional ISR/Strike force capability. As 
envisioned, Guam will also have the infrastructure necessary and in 
place for agile and responsive employment of assigned or transient 
forces; however, adequate strategic lift will be a key requirement for 
rapid, effective deployment of forces from or through Guam.
    Transformation from the USMC's current Okinawa-heavy posture in the 
western Pacific to a more balanced Okinawa-Guam posture better 
positions the Marine Corps to conduct regular security cooperation 
activities with a broader array of partner nations. It also ensures 
that Marine Corps forces are located closer to a larger number of 
potential contingency areas than is currently the case. It is near 
enough to contingency areas and potential threats to provide peace and 
stability to employ rapid response capabilities, promote combined and 
joint training exercises with multiple U.S. allies, and to implement 
the requirements of treaties.
   pre-existing conditions on guam affecting the realignment program
    The impacts of relocating approximately 8,000 Marines and 9,000 
family members, plus the movement of other forces and capabilities to 
Guam, will be significant. The DOD population on Guam is expected to 
grow from its current state of approximately 14,000 to nearly 40,000 in 
a five year period. With Guam's total population of approximately 
171,000, including DOD members and their families, the increase 
associated with the rebasing of Marine Corps forces is significant. If 
we consider the additional population impact of associated contractors, 
base support, and the service industry personnel, Guam's population 
growth could well exceed 25 percent in a very short period. Few 
mainland communities would be able to absorb that increase to their 
population in such a short period of time. For an island community, the 
impacts are magnified.
    The addition of Marine Corps personnel and their families is 
shedding light on the pre-existing infrastructure and social service 
challenges on Guam. Utilities and public works, health care, education 
and other areas have lacked significant attention over the years and 
may now directly affect or be affected by the relocation effort. 
Significant issues can be broadly categorized into the categories of 
environmental, socio-economic, infrastructure, health and human 
services, and labor/workforce.
    To meet the planned timelines, improvements for the port and major 
roads will be needed to directly support construction. The port and 
roads will transport the vast majority of the materials and supplies 
utilized during the construction phase. Delays in infrastructure 
improvements could impact the ability to complete the program on budget 
and on schedule. Upgrades to transportation systems will also support 
the long-term need of handling an increased throughput of supplies to 
support the island's larger post-construction population.
    In addition to infrastructure needs, up to 15,000 workers will be 
needed to complete the planned construction by 2014. The qualified, 
available workforce on Guam is limited. Training programs are needed to 
prepare interested workers for upcoming employment opportunities. The 
prevailing wage rate on the island is not expected to attract 
significant numbers of workers from the continental U.S. or Hawaii. 
Therefore, a sizable number of workers will need to come from 
neighboring foreign countries. These workers will require H2B visas, 
making the recent Senate-approved legislation to remove the current 
annual H2B visa cap for workers coming to Guam and the Mariana Islands 
critical to the program's success.

             FEDERAL EFFORTS TO SUPPORT GUAM'S REQUIREMENTS

    Close coordination with the Government of Guam (GovGuam) is 
critical to correctly identify areas requiring federal attention and 
support. DOD officials meet regularly with representatives from GovGuam 
agencies who comprise the Civilian-Military Task Force. We also 
regularly meet with key GovGuam officials to coordinate the development 
of the Guam Joint Military Master Plan with Guam's own Master Plan to 
facilitate compatible land use. GovGuam representatives directly 
participate in DOD planning efforts, and have become a key element in 
the planning process. As part of the process required by the National 
Environmental Policy Act (NEPA), public scoping meetings were held last 
spring with over 900 comments received from the community. Future 
public outreach sessions are being planned to ensure the community is 
updated and aware of environmental, socioeconomic and cultural impacts, 
and that we are considering these impacts. All of this data is helping 
DOD and other federal agencies determine how we can best support the 
community and the military force realignment.
    The Joint Guam Program Office and the Department of Interior's 
Office of Insular Affairs created and now lead a federal Interagency 
Task Force (IATF). Throughout, JGPO and DOI/OIA have been raising 
awareness across the Federal government of the need to address the 
systemic challenges to support both the construction effort and the 
long term impact of stationing additional forces in Guam. The IATF 
categorized issues into five working groups along the broad categories 
mentioned above (environmental, socio-economic, infrastructure, labor, 
and health and human services). Representatives from key federal 
agencies such as the Departments of Labor, Health and Human Services, 
State, Agriculture, Transportation, and Homeland Security; the 
Environmental Protection Agency; Office of Management and Budget and 
others meet regularly with the intent to identify Guam's requirements 
that extend beyond DOD's responsibilities and authorities and to match 
these requirements with appropriate Federal resources. GovGuam 
representatives, including Governor Felix Camacho and Lieutenant 
Governor Mike Cruz regularly participate in each of the five working 
groups. The IATF has held three meetings to date and each working group 
meets on a regular basis.
    The IATF has developed 10 core issues impacting the civilian 
population on Guam that need to be addressed:

  <bullet> Strengthen healthcare and education workforce
  <bullet> Strengthen public safety workforce and address equipment 
        shortages
  <bullet> Address personnel and equipment shortages at key licensing 
        and permitting agencies
  <bullet> Conduct future housing assessments
  <bullet> Conduct comprehensive labor needs assessment
  <bullet> Perform workforce training
  <bullet> Make capital improvements to healthcare and education 
        facilities
  <bullet> Make capital improvements to seaport
  <bullet> Make capital improvements to public utilities
  <bullet> Make capital improvements to roadway system

    In those areas in which DOD is limited in its ability to 
financially support ``outside-the-fence'' issues in Guam, Federal 
Agencies may be positioned to support other areas of improvement. The 
10 previously mentioned core issues demonstrate how critically 
important Federal agency assistance is to both DOD and GovGuam. As 
costs and responsibilities for these improvements are decided upon, 
prioritized funding requirements from Federal Agencies will be key for 
the creation of symbiotic solutions to the military realignment 
challenges.
    Federal support for ``outside-the-fence'' issues are essential to 
both assist DOD as it delivers required USMC capabilities to the PACOM 
commander and help Guam adjust to a significant change within their 
population.

                 RESULTS TO DATE OF INTERAGENCY SUPPORT

    As a result of these integrated efforts, we are proud to report 
that DOD's Office of Economic Adjustment (OEA) has thus far provided 
nearly $1.7 million in grants to GovGuam to support key planning and 
impact studies. As part of its ongoing technical and financial 
assistance, OEA also agreed to incorporate a financial impact analysis 
that will be tailored to GovGuam's specific needs and phased in a 
manner that will reflect DOD's environmental and socio-economic 
estimates. Additionally, OEA is about to commence community planning 
support and assistance to GovGuam through a Guam Compatibility 
Sustainability Study (CSS). The goal of the CSS is to support and 
assist GovGuam's management and planning capabilities, including land 
use planning.
    Another outcome is the partnership between GovGuam, the Port 
Authority of Guam and the Department of Transportation's Maritime 
Administration. These entities are now working together to achieve 
GovGuam's goal to support the military realignment with the ultimate 
vision of becoming a key intermodal transportation hub in the Pacific 
region.
    Also a result of the interagency meetings, the Departments of 
Labor, State and Interior are working to develop training programs 
designed to equip residents with the appropriate skills sets that will 
make them qualified to support the construction program and post-
construction opportunities.

                     STATUS OF PLANNING AND STUDIES

    We continue the studies necessary for preparing an Environmental 
Impact Statement (EIS) in compliance with the NEPA. The EIS will 
address the movement of Marine Corps forces from Okinawa to Guam as 
well as Navy efforts to construct a transient nuclear aircraft carrier-
capable pier at Apra Harbor and Army intentions to locate a ballistic 
missile defense task force on the island. A draft EIS is expected in 
spring 2009, the final EIS in December 2009, and a Record of Decision 
(ROD) in January 2010.
    In parallel with the EIS efforts, we are developing a Guam Joint 
Military Master Plan (GJMMP). The GJMMP addresses the realignment of 
Marine Corps forces in the context of other DOD actions on Guam, such 
as plans to increase intelligence, surveillance, and reconnaissance 
capabilities and transient forces at Andersen Air Force Base; an 
increased Navy submarine presence; and the Army effort noted above. A 
working level draft of the GJMMP will be complete this summer.

                               CONCLUSION

    DOD continues to integrate the military, GovGuam, private sector 
and Federal agencies so existing systemic issues and upcoming 
challenges created by the anticipated population increase are 
addressed.
    Comprehensive support by all federal agencies and Congress is 
needed to turn this massive effort into a mutual win for the military 
and the community. We appreciate the leadership from the Department of 
Interior and the support and attention from participating federal 
agencies. Their continued commitment is critical to completing the 
program and supporting the people of Guam.
    Thank you for your continued support and the opportunity to testify 
before you today.

    The Chairman. Thank you very much.
    Mr. Pula, go right ahead.

STATEMENT OF NIKOLAO I. PULA, ACTING DEPUTY ASSISTANT SECRETARY 
        FOR INSULAR AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Pula. Good afternoon, Mr. Chairman and members of the 
committee. Thank you for the opportunity to testify on the 
military buildup in Guam.
    This buildup holds enormous economic and financial promise 
for Guam and the region. The economy will benefit from the 
buildup in two stages. First, initial facility-building and 
improvements will create a large number of high-paying 
construction-related jobs for several years. Second, permanent 
new defense and non-defense jobs to support the new military 
mission.
    Generally speaking, evidence from defense spending history 
suggests that each dollar of defense spending could generate 75 
cents of gross domestic product. The number of both active duty 
personnel and dependents in Guam could rise from 14,000 up to 
38,000-plus in 2014. Based on today's total population estimate 
of 171,000 for Guam, the buildup would increase the island's 
population to--more than 23 percent. Guam's economy will need 
time to adjust to this new level of defense spending. The mix 
of defense and civilian jobs following the buildup will be of 
higher paygrade.
    Under current rules, Federal income taxes collected on 
Federal payrolls on Guam are paid into the Treasury of Guam. 
With the near tripling of military and civilian employees at 
the end of the buildup, tax revenue for Guam could increase 
significantly.
    It is too early to estimate all benefits and costs related 
to the buildup. While this prospect presents Guam with a 
tremendous source of revenue, it also presents major challenges 
related to project funding.
    The impacts of the military buildup are magnified because 
Guam is an island. It has no outlying jurisdictions that can 
pick up some of the population increase and that can tap into 
larger electric grid.
    Appreciating the challenges that the buildup will present, 
DOD established the Joint Guam Program Office. It was decided 
that the Interagency Group on Insular Areas, IGIA, would 
establish a Guam Task Force to coordinate issues that cross 
jurisdictional lines of Federal agencies.
    The Task Force has established five working groups: labor, 
infrastructure, environment, health and human services, and 
social-economic.
    The infrastructure subgroup has identified significant 
project and budgetary challenges. The facilities that will be 
built by the military on base will, in large part, be taken 
care of by the military. However, certain areas of 
infrastructure may overlap between the military base and the 
Guam community at large, such as port facilities, a long-haul 
road between the military bases, housing and healthcare 
facilities for construction workers. Other potential 
infrastructure includes schools, hospitals, electric power, 
water, sewer, and solid-waste disposal.
    Up to this point, Interior funding has been aimed at 
expediting the planning process. In March 2008, the Office of 
Insular Affairs provided Guam a technical assistance grant of 
15,000 to aid the writing of a Guam Regional Labor Plan. 
Additionally, we have reprogrammed 2 million of GovGuam capital 
improvement funds so that the Guam Port Authority can quickly 
acquire design and environmental studies for wharf 
modernization.
    GovGuam presented draft lists of prospective infrastructure 
needs, with costs ranging from $1 billion to up to $4 billion. 
A number of plans crucial in determining infrastructure 
improvement needs related to the buildup are still currently in 
development by GovGuam and DOD. Once there is an agreed plan 
for these projects, they may be considered during the 
development of the 2010 budget, which is imminent.
    Among the available funding options for the construction of 
projects will be the expected income on Guam. Private and USDA 
financing options show promise and merit more in-depth 
investigation.
    As chair of the Interagency Group on the Insular Areas, the 
Department understands the need to continue to facilitate 
discussions among all parties and to assist in the procurement 
of necessary resources to address the impending pressures on 
Guam's infrastructure.
    Thank you for the opportunity to testify this afternoon.
    [The prepared statement of Mr. Pula follows:]

    Prepared Statement of Nikolao I. Pula, Acting Deputy Assistant 
       Secretary for Insular Affairs, Department of the Interior
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on the military build-up in Guam and its impact 
on the civilian community, planning and response.

                     THE TRANSFER OF 8,000 MARINES

    Guam is to receive a large defense expansion in the next few years. 
The proposed build-up is the result of an agreement between the United 
States and Japan to relocate about 8,000 United States Marines and 
their dependents from Okinawa to Guam. Construction of new defense 
facilities is scheduled to start in 2010 with the relocation to be 
completed in 2014. The cost of new infrastructure to be installed to 
accommodate the Marines and their dependents is currently estimated to 
be well over $10 billion.
    As a result of the construction, a formidable amount of new capital 
will be injected into an island economy that currently produces $3.7 
billion in Gross Domestic Product per year. This flow of capital has 
the potential to lift Guam's economy to a substantially higher level of 
output. There will be corresponding increases in local employment and 
taxes for the Government of Guam (GovGuam). There will also be new 
businesses to meet new demands for a whole host of goods and services 
arising from the build-up.
    In addition to the relocation of Marine Corps forces from Okinawa, 
which will more than double the current number of active duty personnel 
on Guam, the Air Force and the Navy will also see significant increases 
in both personnel and capabilities. A new small contingent of active 
duty Army personnel will also be posted to Guam.
    This expansion holds enormous economic and financial promise for 
Guam at a time when conventional income sources for a small and 
isolated island economy are extremely limited. The economy will benefit 
from the build-up in two stages: (1) initial facility building and 
improvements will create a large number of high-paying construction-
related jobs for several years and (2) permanent new defense and non-
defense jobs to support the new military mission.
    The build-up will present significant challenges for Guam's small 
and isolated island economy. The first big challenge may occur in the 
early stages of construction, in which labor of all skill levels will 
need to be secured. The local work force may not be sufficiently able 
to satisfy all of the labor needs. We are working with our partners to 
develop training and apprenticeship programs for United States eligible 
labor in the Guam region. After construction is completed and the 
Marines move in, the continuing effect on Guam's economy will be large 
and widespread.
    The build-up also presents a challenge to the ongoing interdiction 
efforts intended to prevent the inadvertent transport of brown tree 
snakes to other Pacific islands or the mainland United States. 
Cooperative efforts are aimed at suppressing the brown tree snake 
population in strategic transportation and cargo facilities through the 
construction of snake barriers, and other interdiction efforts. The 
primary threat is that brown tree snakes are prone to hiding in cargo, 
on aircraft, and in vehicles and could potentially be introduced in 
other habitats that are snake-free and that support endangered or 
threatened bird species. We will continue to work with our interagency 
partners to suppress the tree snake populations in strategic areas, 
secure military and cargo facilities through the construction of tree 
snake barriers, and ramped up interdiction efforts as the military 
build-up on Guam progresses.

                   ECONOMIC EFFECTS OF BASE EXPANSION

    In a macroeconomic sense, an important question is how much the 
proposed base expansion in Guam will contribute to the insular area's 
economy. Roughly, evidence from defense spending history in the United 
States, including Hawaii, which is relevant to Guam, suggests that each 
dollar of defense spending could generate 75 cents of gross domestic 
product (GDP), the final value of the economy's total output. The 75 
cents contribution to GDP from each defense dollar is what economists 
call the multiplier effect on GDP, which is the sum of direct, indirect 
and induced effects.
    At present, Guam's defense establishment, mostly the Navy, is 
relatively small. There are a total of 6,520 active duty personnel and 
7,690 dependents on island. Defense spending on Guam was $711.7 million 
in fiscal year 2005, the latest year for which final figures are 
available.
    Federal civilian payroll at the end of 2007 numbered 3,610, of 
which 3,040 or 84.2 percent were civilian DOD employees. Non-DOD 
Federal employees were 570 or 15.8 percent of the total. There is 
roughly one civilian employee for every two active duty persons.
    Assuming an addition of about 8,000 Marines and 4,510 active duty 
personnel in other military services when the build-up is completed, 
the number of active duty personnel would increase from 6,520 today to 
19,330 in 2014. The number of dependents could rise from 7,690 today to 
19,140 in 2014. The number of both active duty personnel and dependents 
in Guam could rise from 14,210 today to 38,470 in 2014. Based on 
today's total population estimate of 171,000 for Guam, the build-up 
will increase the island's population some 22.3 percent to 218,000. 
These population numbers do not include new businesses that will remain 
on-island after 2014 which will add owners, employees, and their 
families to the population.
    Using the current ratios for Guam, defense spending for Guam will 
rise from $700-800 million to more than $2 billion in 2014, when 
construction is planned to be completed. Applying the defense spending 
multiplier for Hawaii, the increase in defense spending could add $900 
million to $1 billion annually to Guam's GDP. Assuming a $3.7 billion 
GDP and the prospect that the rest of the economy, namely tourism and 
local government, will continue to perform at the same rate it does 
today, the build-up could boost Guam's GDP by approximately 22.5 
percent. Realistically, it would be hard to envision any other 
alternative for Guam that would increase its total economic output by 
nearly a quarter in such a relatively short time.
    Naturally, Guam's economy will need time to adjust to this new 
level of defense spending during the build-up. Once it does, it will be 
at a much higher level than it has ever been or is conceivable to be 
under any other scenario. More important, the mix of defense and 
civilian jobs following the build-up will be of a higher pay grade than 
would be feasible in the rest of the economy, which is mostly tourism 
and other services that employ few advanced skills. Other good news for 
Guam is that national defense, as has been the case in both Guam and 
Hawaii for many decades, coexists in harmony with the rest of the 
economy and population.
    Again, using the current ratios for Guam, the 12,810 additional 
active-duty personnel resulting from the build-up could create 6,000 
new civilian jobs for Guam. Given today's total payroll employment 
figure of just over 60,000, this would be a 10 percent increase in 
civilian employment.
    Guam's other major income source is tourism, which is critical to 
jobs and local tax revenue. As important as tourism is, it is subject 
to what economists call leaks, that is, more of the money that mostly 
foreign tourists spend in Guam leaks out of the system in the form of 
payment for imports, air fares for foreign carriers and foreign-owned 
hotels. Defense spending, on the contrary, is subject to fewer leaks as 
compared to tourism, because more defense establishment payments, 
including wages, salaries, payments to local contractors, and other 
base expenses, are likely to remain in the system.
    One way to look at the difference between defense and tourism is to 
look at their average wages and salaries. In Guam, the average of wages 
and salaries in defense is much higher than the average in tourism. The 
average level of wages and salaries in defense for all active duty and 
civilian employees together, based on fiscal year 2005 data, was 
$34,037. This figure is 74.8 percent higher than the average for 
tourism, which, according to the Guam Visitors Bureau, is $19,468. The 
higher pay level, in combination with fewer leaks from the system, 
makes the defense payroll more desirable for nearly every community.
    Another way to look at what this expansion will do for Guam's 
economy is to look at taxes that will be covered over to the Treasury 
of Guam. Under current rules, Federal income taxes collected on Federal 
payrolls on Guam are paid into the Treasury of Guam. Currently, this 
sum is about $40 million a year. With a near tripling of the number of 
active duty personnel and about 6,000 new civilian employees at the end 
of the build-up, tax revenue for Guam could increase significantly.

                         PLANNING AND FINANCING

    It is too early to estimate fully all benefits and costs related to 
the build-up. At this point, many of DOD's plans have not been 
finalized, and studies evaluating the expected economic impact of the 
relocation are also pending. However, DOD estimates that the 
realignment could add as many as 40,000 persons to Guam's current 
population of 171,000. While this prospect presents Guam with a 
tremendous source of revenue, it also presents major challenges related 
to project funding.
    The impacts of a military build-up are magnified in Guam because 
Guam is an island. It is surrounded by water with no outlying 
jurisdictions that can pick up some of the population increase and that 
can tap into a larger electric grid. All of the effects are 
concentrated on one jurisdiction--Guam.
    Appreciating the challenges that the build-up will present, the 
Department of Defense (DOD) established the Joint Guam Program Office 
(JGPO), headed by Major General David Bice, USMC (Retired), under the 
Assistant Secretary of the Navy (Installations and Environment. It was 
decided that the Interagency Group on Insular Areas (IGIA) would 
establish a Guam Task Force to coordinate military build-up issues that 
cross jurisdictional lines of Federal agencies. Interior and JGPO are 
leading the Task Force effort. The Task Force has established five 
working groups: Labor, Infrastructure, Environment, Health and Human 
Services, and Socio-Economic. The Department of Education forms a sub-
group within the Labor working group.
    Notably, the Infrastructure subgroup has identified significant 
project and budgetary challenges associated with the build-up. The 
facilities that will be built by the military on base will, in large 
part, be taken care of by the military. However, certain areas of 
infrastructure may overlap between the military base and the Guam 
community at large. Funding for many of these items has not yet been 
determined. A sample of this infrastructure includes--

                  Port facilities and capacity
                  Long-haul road between the Navy and Air Force bases
                  Housing for the construction workers (to be privately 
                funded)
                  Health care facilities for construction workers

    Furthermore, other potential infrastructure expenditures related to 
the build-up have been identified within the JGPO meetings. These 
include:

                  Schools for children of new civilian workers
                  Hospital facilities
                  Electric Power facilities
                  Water and Sewer facilities
                  Solid waste disposal facilities
                  Government Administrative facilities

    Up to this point, Interior funding has been aimed at expediting the 
planning process. In March 2008, the Office of Insular Affairs provided 
Guam a technical assistance grant of $15,000 to aid the writing of a 
Guam grant application for U.S. Department of Labor funds to develop a 
regional labor plan. Such a plan must be in place before training and 
apprenticeship funds can be released for United States eligible labor 
in Guam and the surrounding United States-affiliated islands. 
Additionally, the Office of Insular Affairs has reprogrammed $2 million 
in GovGuam capital improvement funds so that the Guam Port Authority 
can quickly acquire design and environmental studies for wharf 
modernization. The Department of the Interior believes it is critical 
to get the port modernized in order to address future infrastructure 
issues.
    The November 2007 meeting of the Task Force was intended to outline 
military realignment activities and associated costs, both for the 
military and GovGuam. At this meeting, GovGuam presented draft lists of 
prospective infrastructure needs with costs ranging from $1 billion to 
more than $4 billion.
    A number of plans crucial in determining infrastructure improvement 
needs related to the build-up are still currently in development. These 
plans are a prerequisite for budgetary planning and need to be 
finalized before construction upgrades can begin. Within this context, 
facilities that will be crucial to the build-up but which will also 
benefit Guam's economy, such as the port and road facilities, may be 
the first priority upgrade projects. Once there is an agreed plan for 
GovGuam projects, they may be considered during the development of the 
2010 budget.
Projects with Income
    Among the available funding options for the construction of 
projects with expected income on Guam, private and USDA financing 
options show promise and merit more in-depth investigation. Projects 
that have revenue streams may be able to borrow in their own right 
through public corporations, independent authorities, or other 
entities. Port activities, electric power, water, wastewater, solid 
waste disposal can all generate income, which allows them to finance 
through borrowing. Currently, the Guam Port Authority and Guam Power 
Authority are organized as independent entities, run their own affairs, 
and negotiate their own financing.
    Independent entities can seek to provide a service at the lowest 
cost. Thus, they plan for proper capacity and finance only what is 
necessary. Full cost recovery is a usual requirement. Such a 
structuring of activities refutes a ``gold-plating'' argument. 
Additionally if private sector financing seems scarce, the United 
States Department of Agriculture (USDA) offers a variety of rural 
development loans that may be a viable resource for qualified 
borrowers. As typical for government loan programs, these require that 
the government get an appropriation only for the risk associated with 
the loan rather than the entire loan amount. Loans where there is a 
reasonable risk of default will have a higher cost than those which 
typically do not default. For instance, the renewable energy guaranteed 
loan program has a 10 percent subsidy rate compared to the hardship 
electric loan program which has a .12 percent subsidy rate. Because 
utilities typically have little risk of default, financing of electric 
loans is secure and carries a low up-front financing cost on behalf of 
the Federal government. There is an additional administrative cost 
associated with all loan programs that is not reflected in the subsidy 
rate that we would have to consider with this option. For all USDA 
loans, the borrower would have to agree to the terms of the loan and 
will need to repay the loan in full.
Projects without Income
    Construction of schools, roads, and social service facilities such 
as buildings to house courts and public safety offices, are another 
matter. They do not generate income but are paid for with tax 
collections. USDA is a potential source for this type of financing as 
well through its community facilities grants and loans programs.
    While Federal moneys may need to be appropriated for some aspects 
of some construction projects in the civilian areas of Guam, we are 
more confident today than earlier that a large portion of construction 
can be financed through borrowings or public/private ventures, 
including from USDA. However, such an approach is premised on 
sufficient Federal funds being available to cover the subsidy and 
administrative costs of the loan programs as well as full repayment of 
the loans by the borrowers.
    As Chair of the Interagency Group on Insular Areas, the Department 
understands the need to continue to facilitate discussions between the 
military and Guam, and to assist in the procurement of necessary 
resources to address the impending pressures on the infrastructure of 
Guam.

    The Chairman. Thank you very much.
    Mr. Lepore, go right ahead.

STATEMENT OF BRIAN J. LEPORE, DIRECTOR DEFENSE CAPABILITIES AND 
          MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Mr. Chairman.
    Mr. Chairman, I'm delighted to be here today to testify on 
our review of DOD's plans for the military buildup on Guam.
    DOD is significantly realigning its overseas force 
structure, and plans to relocate upwards of 25,000 
servicemembers and their dependents from Okinawa and other 
locations to Guam, an important part of that overseas 
realignment initiative. Here's the bottom line: This is going 
to cost a lot, be challenging, and have to be done quickly in 
order to meet DOD's timeframes.
    As you requested, I will address three topics today, Mr. 
Chairman. First, I will address DOD's planning process for the 
military buildup on Guam. Second, I will identify likely 
challenges. Finally, I will describe the status of planning to 
meet the off-base infrastructure challenges. My testimony today 
is based largely on our September 2007 report on DOD's overseas 
master plans.
    In the 1990s, the United States and Japan negotiated a 
change to operating rules of United States Forces in Japan and 
to close Marine Corps Air Station Futenma and relocate the 
base's force to another base on Okinawa. But, Futenma never 
closed.
    In 2004, the United States and Japan again consulted to 
reduce the burden of the United States presence. Based on that, 
DOD will try once again to close Futenma. As before, DOD will 
try to relocate those forces to another base on Okinawa. What's 
different is that DOD would also relocate upwards of 17,000 
marines and their dependents from Okinawa to Guam.
    DOD views the Futenma initiative as the key for other 
realignments. Also on Guam, the Air Force plans a global 
intelligence, reconnaissance, and strike hub. The Navy plans to 
enhance waterfront facilities for transiting aircraft carriers. 
The Army plans to place a ballistic missile defense site. When 
completed, the Active Duty and dependent population on Guam 
will have increased from about 14,000 to in excess of 39,000 
people by 2014.
    Now to my first main point. DOD has a framework for the 
military buildup, but many key decisions have not been made 
yet, and the final size and makeup of the Guam-based force, and 
the required facilities to support them, are not known. Still, 
DOD will request funds for fiscal year 2010 before fully 
deciding on the requirements. DOD plans to complete the 
relocation only 4 years later, in 2014.
    Now to my second point. DOD and the Government of Guam face 
many challenges. DOD's challenges include obtaining enough 
money. DOD estimates the buildup will cost at least $13 
billion, but this does not include all costs. For example, DOD 
has not included the cost of required training ranges on other 
islands. The Government of Japan expects to contribute about $6 
billion, but a little more than half may be recouped by Japan 
as servicemembers use their basic allowance for housing to rent 
their quarters, and certain other fees are paid back to the 
Government of Japan by funds appropriated by the Congress.
    There's something else. First, the Government of Japan 
plans to review and approve the specific infrastructure plans 
before providing any funds for the facilities on Guam. Second, 
if Marine Corps Air Station Futenma is not closed, and the 
force not relocated, the Marine Corps relocation to Guam may be 
canceled or may be delayed.
    The Government of Guam also faces some significant 
challenges. Here's a partial list, based on several reports and 
plans:
    Construction demands are likely to exceed the capacity of 
available workers on Guam; up to 20,000 are needed. In other 
words, DOD will need about as many construction workers to 
build the new military infrastructure as the number of 
servicemembers and their dependents who will use that new 
infrastructure.
    The buildup requires double the existing port capacity.
    Guam's major highways may not have enough capacity to 
accommodate the increased traffic.
    Guam's electric system may not be adequate to fully support 
the buildup.
    Guam's water and waste-water systems are near capacity, but 
demand may increase by 25 percent.
    Guam's solid-waste facilities are nearly full.
    My last point: The Government of Guam has just begun to 
plan for this off-base infrastructure, a very significant 
undertaking. But, continuing uncertainties about the makeup of 
the Guam-based force make it difficult for the Guam officials 
to effectively plan.
    Communities in the continental United States surrounding 
growth bases face a similar uncertainty. We recently reported 
that most such communities, with far lower requirements, were 
likely to incur significant costs for infrastructure and were 
seeking Federal assistance. Guam is likely to do likewise.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be happy to take any questions that you may have today.
    [The prepared statement of Mr. Lepore follows:]

   Statement of Brian J. Lepore, Director, Defense Capabilities and 
              Management, Government Accountability Office
Why GAO Did This Study
    To reduce the burden of the U.S. military presence on Japanese 
communities while maintaining a continuing presence of U.S. forces in 
the region, in 2005 and 2006 the U.S.-Japan Defense Policy Review 
Initiative outlined the effort to relocate American military units in 
Japan to other areas, including Guam. The Department of Defense (DOD) 
plans to move 8,000 Marines and an estimated 9,000 dependents from 
Okinawa, Japan, to Guam by the 2014 goal.
    GAO was asked to discuss the planning effort for the buildup of 
U.S. forces and facilities on Guam. Accordingly, this testimony 
addresses (1) DOD's planning process for the military buildup on Guam, 
(2) potential challenges for DOD and the government of Guam associated 
with the buildup, and (3) the status of planning efforts by the 
government of Guam to meet infrastructure challenges caused by the 
buildup.
    This testimony is based largely on findings of a September 2007 GAO 
report on DOD's overseas master plans and prior work on issues related 
to the U.S. military presence in Okinawa. It is also based, in part, on 
preliminary observations from an ongoing GAO review of DOD's planning 
effort to address the challenges associated with the military buildup 
on Guam and on other GAO work on the effects of DOD-related growth on 
surrounding communities in the continental United States.
    GAO is not making recommendations at this time.

                         Defense Infrastructure

PLANNING EFFORTS FOR THE PROPOSED MILITARY BUILDUP ON GUAM ARE IN THEIR 
        INITIAL STAGES, WITH MANY CHALLENGES YET TO BE ADDRESSED

What GAO Found
    DOD has established a framework for the military buildup on Guam; 
however, many key decisions remain, such as the final size of the 
military population, which units will be stationed there, and what 
military facilities will be constructed. This part of the planning 
process is ongoing, along with the development of a required 
environmental impact statement, currently expected to be issued in 
2010. However, DOD will submit budget requests for fiscal year 2010 
prior to that date, and thus may not know the full extent of its 
facility requirements before asking Congress to provide the associated 
funding. Officials of the Navy's Joint Guam Program Office told us that 
immediately after the environmental impact statement is completed, DOD 
will commence construction of facilities in efforts to meet the 2014 
goal discussed in the Defense Policy Review Initiative. However, other 
DOD and government of Guam officials believe that this is an optimistic 
schedule considering the possibility that the environmental impact 
statement could be delayed, the complexities of moving thousands of 
Marines and their dependents to Guam, and the need to obtain sufficient 
funding from the governments of United States and Japan to support the 
move.
    DOD and the government of Guam face several significant challenges 
associated with the proposed military buildup on Guam. DOD's challenges 
include obtaining adequate funding and meeting operational needs, such 
as mobility support and training capabilities. There are also 
challenges in addressing the effects of military and civilian growth on 
Guam's community and civilian infrastructure. For example, according to 
DOD and government of Guam officials, Guam's highways may be unable to 
bear the increase in traffic associated with the military buildup, its 
electrical system may not be adequate to deliver the additional energy 
needed, its water and wastewater treatment systems are already near 
capacity, and its solid waste facilities face capacity and 
environmental challenges even without the additional burden associated 
with the projected increase in U.S. forces and their dependents.
    The government of Guam's efforts to plan to meet infrastructure 
challenges caused by the buildup of military forces and facilities are 
in the initial stages, and existing uncertainties associated with the 
military buildup contribute to the difficulties Guam officials face in 
developing precise plans. These challenges are somewhat analogous to 
challenges communities around continental U.S. growth bases face. 
Government of Guam officials recognize that the island's infrastructure 
is inadequate to meet the projected demand; however, funding sources 
are uncertain. These same officials are uncertain as to whether and to 
what extent the government of Guam will be able to obtain financial 
assistance for projected infrastructure demands due to the military 
buildup. In September 2007, GAO reported that most communities 
experiencing civilian and military population growth at Army 
installations in the continental United States will likely incur costs 
to provide adequate schools, transportation, and other infrastructure 
improvements, and many of these communities are also seeking federal 
and state assistance.
    Mr. Chairman and Members of the Committee:
    I appreciate the opportunity to be here today to discuss the 
planning effort for the buildup of U.S. forces and facilities in Guam 
and to describe the associated challenges for the Department of Defense 
(DOD) and the local community in accommodating the expansion of DOD's 
military presence on Guam. To reduce the burden of the U.S. military 
presence on Japanese communities while maintaining a continuing 
presence of U.S. forces in the region, the U.S.-Japan Defense Policy 
Review Initiative\1\ established a framework for the future of U.S. 
force structure in Japan, including the relocation of American military 
units in Japan to other areas, including Guam. As a part of this 
initiative, DOD plans to move 8,000 Marines and their estimated 9,000 
dependents from Okinawa, Japan, to Guam by the 2014 goal. At the same 
time, the other military services are also planning to expand their 
operations and military presence on Guam. For example, the Navy plans 
to enhance its infrastructure, logistic capabilities, and waterfront 
facilities; the Air Force plans to develop a global intelligence, 
surveillance, and reconnaissance strike hub at Andersen Air Force Base; 
and the Army plans to place a ballistic missile defense task force on 
Guam. As a result of these plans and the Marine Corps realignment, the 
total military buildup on Guam is estimated to cost over $13 billion 
and increase Guam's current population of 171,000 by an estimated 
25,000 active duty military personnel and dependents (or 14.6 percent) 
to 196,000. The government of Japan is expected to contribute about 
$6.1 billion toward the costs of the Marine Corps move, although a 
portion of these funds could be repaid over time by the U.S. 
government.
---------------------------------------------------------------------------
    \1\ DOD officials refer to the process through which the United 
States and Japan negotiated the initiatives that realign U.S. forces in 
Japan as the Defense Policy Review Initiative. The realignment 
initiatives were the result of Security Consultative Committee meetings 
in 2005 and 2006 between U.S. and Japan officials. The Security 
Consultative Committee is made up of the U.S. Secretaries of State and 
Defense and Japan's Minister of Foreign Affairs and Minister of State 
for Defense. The committee sets overall bilateral policy regarding the 
security relationship between the United States and Japan. The results 
of these meetings established a framework for the future U.S. force 
structure in Japan, including the Marine Corps move from Okinawa, 
Japan, to Guam.
---------------------------------------------------------------------------
    We have issued several reports on DOD's integrated global presence 
and basing strategy\2\ and its overseas master plans for changing U.S. 
military infrastructure overseas as required by the fiscal year 2004 
Senate military construction appropriation bill report.\3\ Most 
recently, in September 2007, we reported on DOD's overseas master plans 
for changing its infrastructure overseas and on the status of DOD's 
planning effort and the challenges associated with the buildup of 
military forces and facilities on Guam.\4\ In that report, we found 
that DOD's planning effort for the military buildup on Guam was in its 
initial stages, with many key decisions and challenges yet to be 
addressed. Additionally, we found that the potential effects of the 
increase in military forces on Guam's infrastructure--in terms of 
population and military facilities--had not been fully addressed. Also, 
in September 2007, we reported how communities in the continental 
United States are planning and funding for infrastructure to support 
significant personnel growth in response to implementing base 
realignment and closure, overseas force rebasing, and force modularity 
actions.\5\
---------------------------------------------------------------------------
    \2\ GAO, Defense Management: Comprehensive Strategy and Annual 
Reporting Are Needed to Measure Progress and Costs of DOD's Global 
Posture Restructuring, GAO-06-852 (Washington, D.C.: Sept. 13, 2006).
    \3\ GAO, DOD's Overseas Infrastructure Master Plans Continue to 
Evolve, GAO-06-913R (Washington, D.C.: Aug. 22, 2006); Opportunities 
Exist to Improve Comprehensive Master Plans for Changing U.S. Defense 
Infrastructure Overseas, GAO-05-680R (Washington, D.C.: June 27, 2005); 
and Defense Infrastructure: Factors Affecting U.S. Infrastructure Costs 
Overseas and the Development of Comprehensive Master Plans, GAO-04-609 
(Washington, D.C.: July 15, 2004).
    \4\ GAO, Defense Infrastructure: Overseas Master Plans Are 
Improving, but DOD Needs to Provide Congress Additional Information 
about the Military Buildup on Guam, GAO-07-1015 (Washington, D.C.: 
Sept. 12, 2007).
    \5\ GAO, Defense Infrastructure: Challenges Increase Risks for 
Providing Timely Infrastructure Support for Army Installations 
Expecting Substantial Growth, GAO-07-1007 (Washington, D.C.: Sept. 13, 
2007).
---------------------------------------------------------------------------
    As requested, my testimony today will focus on three principal 
objectives. First, I will address DOD's planning process for the 
military buildup on Guam. Second, I will point out potential challenges 
for DOD and the government of Guam associated with the military 
buildup. Third, I will describe the status of planning efforts by the 
government of Guam to address infrastructure challenges to the local 
community caused by the buildup of military forces and facilities.
    My testimony is based largely on findings of our September 2007 
report on DOD's overseas master plans and information from a prior 
report on issues related to reducing the effects of the U.S. military 
presence in Okinawa.\6\ My testimony is also based, in part, on 
preliminary observations from our ongoing review of DOD's overseas 
master plans and its planning effort to address the challenges 
associated with the military buildup on Guam and on two separate 
reports of the effects of DOD-related growth on surrounding communities 
in the continental United States.\7\ As part of our ongoing work, we 
met with officials from the Office of the Secretary of Defense, U.S. 
Pacific Command, Marine Forces Pacific, Third Marine Expeditionary 
Force, and the Navy's Joint Guam Program Office (JGPO)--the office 
established to plan and execute the military buildup on Guam--to 
discuss the planning process for DOD's military realignments on Guam 
and to identify challenges associated with the buildup of military 
forces and infrastructure on Guam. We also met with the Governor of 
Guam and his staff, members of the Guam legislature, staff from the 
office of the Guam Delegate to the House of Representatives, and 
various Guam community groups to discuss their planning efforts and any 
challenges they may face related to the military buildup. We expect to 
report the results of our ongoing review to congressional defense 
committees later this year. We conducted this performance audit and our 
prior reports in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \6\ GAO, Overseas Presence: Issues Involved in Reducing the Impact 
of the U.S. Military Presence on Okinawa, GAO/NSIAD-98-66 (Washington, 
D.C.: Mar. 2, 1998).
    \7\ GAO, Defense Infrastructure: DOD Funding for Infrastructure and 
Road Improvements Surrounding Growth Installations, GAO-08-602R 
(Washington, D.C.: Apr. 1, 2008), and GAO-07-1007.
---------------------------------------------------------------------------
                                SUMMARY

    DOD has established a framework for the military buildup on Guam; 
yet, many key decisions must still be made, such as the final size of 
the military population, which units will be stationed there, and what 
military facilities will be required. The U.S.-Japan Defense Policy 
Review Initiative established a framework for the future of U.S. force 
structure in Japan and the Marine Corps realignment to Guam. The U.S. 
Pacific Command then developed the Guam Integrated Military Development 
Plan\8\ to provide an overview of the projected military population and 
infrastructure requirements. However, the exact size and makeup of the 
forces to move to Guam and the housing, operational, quality of life, 
and service supportinfrastructure required are not yet fully known. 
This part of the planning process is ongoing, along with the 
development of a required environmental impact statement. Before JGPO 
can finalize its master plan for the military buildup on Guam, it needs 
to complete the required environmental impact statement, currently 
expected to be issued in 2010. Prior to that date, DOD will submit its 
fiscal year 2010 budget request to Congress for the first phase of 
military construction projects on Guam. Thus, DOD may be asking 
Congress to fund the military construction projects without the benefit 
of a completed environmental impact statement or a final decision on 
the full extent of its facility and funding requirements. DOD officials 
said that the department often requests funding during the same period 
environmental impact statements are being developed for large projects, 
including major base realignments and closures. JGPO officials told us 
that immediately after the environmental impact statement is completed, 
DOD will commence construction of facilities in efforts to meet the 
2014 goal identified in the Defense Policy Review Initiative. However, 
other DOD and government of Guam officials believe that this is an 
ambitious and optimistic schedule considering the possibility that the 
environmental impact statement could be delayed, the complexities of 
moving thousands of Marines and their dependents from Okinawa to Guam, 
and the need to obtain sufficient funding from the governments of 
United States and Japan to support the Marine Corps move.
---------------------------------------------------------------------------
    \8\ U.S. Pacific Command, Guam Integrated Military Development Plan 
(Camp H.M. Smith, Hawaii: July 11, 2006).
---------------------------------------------------------------------------
    DOD and the government of Guam face several significant challenges 
associated with the proposed military buildup on Guam. DOD's challenges 
include obtaining adequate funding and meeting operational needs, such 
as mobility support and training capabilities. There are also 
challenges in addressing the effects of military and civilian growth on 
Guam's community and infrastructure. For example, according to DOD and 
government of Guam officials, Guam's highways may be unable to bear the 
increase in traffic associated with the military buildup, its 
electrical system may not be adequate to deliver the additional energy 
needed, its water and wastewater treatment systems are already near 
capacity, and its solid waste facilities face capacity and 
environmental challenges even without the additional burden associated 
with relocation of U.S. forces and their dependents.
    The government of Guam's efforts to plan to meet infrastructure 
challenges caused by the buildup of military forces and facilities on 
Guam are in the initial stages, and existing uncertainties associated 
with the military buildup further contribute to the difficulties Guam 
officials face in developing precise plans. These challenges are 
somewhat analogous to the challenges communities around continental 
United States growth bases face. Furthermore, government of Guam 
officials stated that Guam will likely require significant funding to 
address the island's inadequate infrastructure capacity; however, 
funding sources are uncertain. These same officials are uncertain as to 
whether and to what extent the government of Guam will be able to 
obtain financial assistance for projected infrastructure demands due to 
the military buildup. In September 2007, we reported that most U.S. 
communities surrounding growing Army bases have unique infrastructure 
improvement needs, such as schools, transportation, and other 
infrastructure improvements, and many of these communities are also 
seeking state and federal assistance.\9\
---------------------------------------------------------------------------
    \9\ See GAO-07-1007.
---------------------------------------------------------------------------
                               BACKGROUND

    Since the end of World War II, the U.S. military has based forces 
in Okinawa and other locations in Japan. The U.S. military occupation 
of Japan ended in 1952, but the United States administered the Ryukyu 
Islands, including Okinawa, until 1972. Efforts to address the Japanese 
population's concerns regarding U.S. military presence in Okinawa began 
more than a decade ago. One chief complaint is that the Okinawa 
prefecture hosts over half of the U.S. forces in Japan and that more 
than 70 percent of the land U.S. forces utilize in Japan is on Okinawa. 
Many citizens of Okinawa believe the U.S. presence has hampered 
economic development. The public outcry in Okinawa following the 
September 1995 abduction and rape of an Okinawan schoolgirl by three 
U.S. servicemembers brought to the forefront long-standing concerns 
among the Okinawan people about the effects of the U.S. military 
presence on the island. According to the Office of the Secretary of 
Defense, at that time, the continued ability of the United States to 
remain in Japan was at risk, and it was important to reduce the effects 
of the U.S. military presence on the Okinawan people. To address these 
concerns, bilateral negotiations between the United States and Japan 
began, and the Security Consultative Committee established the Special 
Action Committee on Okinawa in November 1995. The committee developed 
recommendations on ways to limit the effects of the U.S. military 
presence on Okinawa by closing Marine Corps Air Station Futenma and 
relocating forces from that base to another base on Okinawa, and 
recommended numerous other operational changes. On December 2, 1996, 
the U.S. Secretary of Defense, U.S. Ambassador to Japan, Japan 
Ministers of Foreign Affairs and State, and the Director General of the 
Japan Defense Agency issued the committee's final report.
    In 1998, we reviewed the Special Action Committee's Final 
Report.\10\ At that time, among other things, we reported that the 
forward deployment on Okinawa significantly shortens transit times, 
thereby promoting early arrival in potential regional trouble spots 
such as the Korean peninsula and the Taiwan straits. For example, it 
takes 2 hours to fly to the Korean peninsula from Okinawa, as compared 
with about 5 hours from Guam, 11 hours from Hawaii, and 16 hours from 
the continental United States. Similarly, it takes about 1-1/2 days to 
make the trip from Okinawa by ship to South Korea, as compared with 
about 5 days from Guam, 12 days from Hawaii, and 17 days from the 
continental United States. Also, the cost of this presence is shared by 
the government of Japan, which provides land and other infrastructure 
on Okinawa rent free and pays part of the annual cost of Okinawa-based 
Marine Corps forces, such as a portion of the costs for utilities and 
local Japanese labor. Most initiatives of the Special Action Committee 
on Okinawa involving training operations, changes to the status of 
forces agreement procedures, and noise reduction were successfully 
implemented. In contrast, initiatives involving land returns have not 
been as successful, with the majority still ongoing. For example, the 
closure of Marine Corps Air Station Futenma was never completed and the 
air station remains open and operational. According to U.S. Forces 
Japan officials, these initiatives may involve multiple construction 
projects to satisfy the requirements of the initiatives as well as 
detailed coordination between the government of Japan and the local 
communities to gain consensus for these projects.
---------------------------------------------------------------------------
    \10\ See GAO/NSIAD-98-66.
---------------------------------------------------------------------------
    In 2004, the United States and Japan began a series of sustained 
security consultations aimed at strengthening the U.S.-Japan security 
alliance to better address today's rapidly changing global security 
environment. DOD's Defense Policy Review Initiative established a 
framework for the future of U.S. force structure in Japan designed to 
create the conditions to reduce the burden on Japanese communities and 
create a continuing presence for U.S. forces in the Pacific theater by 
relocating units to other areas, including Guam (app. I shows the 
location of Guam).* This initiative also includes a significant 
reduction and reorganization of the Marine Corps presence on Okinawa to 
include relocating 8,000 Marines and their estimated 9,000 dependents 
to Guam. More than 10,000 Marines and their dependents will remain 
stationed in Okinawa after this relocation. Another initiative includes 
the closure and replacement of Marine Corps Air Station Futenma at a 
less densely populated location on Okinawa by the 2014 goal as a result 
of local concerns involving safety and noise. DOD officials view the 
success of the Futenma replacement facility as a key objective of the 
initiative that will need to be completed in order for other 
realignment actions to take place. Previously, the United States and 
Japan were unsuccessful in closing and replacing the Marine Corps Air 
Station Futenma as a part of the Special Action Committee effort on 
Okinawa.
---------------------------------------------------------------------------
    * Appendixes I-III have been retained in committee files.
---------------------------------------------------------------------------
Other Global Realignments
    In recent years, DOD has been undergoing a transformation that has 
been described as the most comprehensive restructuring of U.S. military 
forces overseas since the end of the Korean War. The initiative is 
intended to close bases no longer needed to meet Cold War threats as 
well as bring home U.S. forces while stationing more flexible, 
deployable capabilities in strategic locations around the world. As 
part of its transformation, DOD has been reexamining overseas basing 
requirements to allow for greater U.S. military flexibility to combat 
conventional and asymmetric threats worldwide.
    The Marine Corps realignment from Okinawa to Guam is just one of 
several initiatives to move military forces and equipment and construct 
supporting military facilities on Guam. In addition to the Marine 
Corps' move to Guam, the Navy plans to enhance its infrastructure, 
logistic capabilities, and waterfront facilities to support transient 
nuclear aircraft carrier berthing, combat logistics force ships, 
submarines, surface combatants, and high-speed transport ships at Naval 
Base Guam. The Air Force plans to develop a global intelligence, 
surveillance, and reconnaissance strike hub at Andersen Air Force Base 
by hosting various types of aircraft, such as fighters, bombers, and 
tankers, and the Global Hawk system, which is a high-altitude, long-
endurance unmanned aerial reconnaissance system, on both permanent and 
rotational bases. The Army also plans to place a ballistic missile 
defense task force on Guam with approximately 630 soldiers and 950 
dependents. As a result of these plans and the Marine Corps 
realignment, the active duty military personnel and dependent 
population of more than 14,000 on Guam is expected to increase 
approximately 176 percent to more than 39,000 (app. II shows current 
U.S. military bases on Guam).
Master Planning Requirements for the Military Buildup on Guam
    As initiatives for expanding the U.S. military presence on Guam 
began to emerge, the Senate Appropriations Committee noted the 
ambitiousness of the military construction program and the need for a 
well-developed master plan to efficiently use the available land and 
infrastructure. In July 2006, the committee recommended deferral of two 
military construction projects at Andersen Air Force Base that were 
included in the President's budget request until such time as they can 
be incorporated into a master plan for Guam and viewed in that context. 
Further, the committee directed the Secretary of Defense to submit to 
the appropriation committees a master plan for Guam by December 29, 
2006, and a report accounting for the United States' share of this 
construction program to project-level detail and the year in which each 
project is expected to be funded.\11\ The Senate report also directed 
GAO to review DOD's master planning effort for Guam as part of its 
annual review of DOD's overseas master plans.\12\ As discussed in our 
2007 report, DOD has not issued a Guam master plan for several reasons. 
First, the required environmental impact statement, which will take at 
least 3 years to complete according to DOD documents and officials, was 
initiated on March 7, 2007.\13\ According to DOD officials, the results 
of that environmental impact statement will influence many of the key 
decisions on the exact location, size, and makeup of the military 
infrastructure development on Guam. Second, exact size and makeup of 
the forces to be moved to Guam are not yet identified. Third, DOD 
officials said that additional time is needed to fully address the 
challenges related to funding uncertainties, operational requirements, 
and Guam's economic and infrastructure requirements.
---------------------------------------------------------------------------
    \11\ S. Rep. No. 109-286, at 15 (2006).
    \12\ See GAO-07-1015.
    \13\ The primary purpose of an environmental impact statement is to 
serve as an action-forcing device to ensure that the policies and goals 
defined in the National Environmental Policy Act are infused into the 
ongoing programs and actions of the federal government. Further, 
regulations for implementing the act established by the Council on 
Environmental Quality specify that to the fullest extent possible, 
agencies shall prepare draft environmental impact statements 
concurrently with and integrated with other environmental impact 
analyses and related surveys and studies required by the Fish and 
Wildlife Coordination Act, the National Historic Preservation Act of 
1966, the Endangered Species Act of 1973, and other environmental 
review laws and executive orders. See 40 C.F.R. Sec. 1502.25.
---------------------------------------------------------------------------
Organizations and Responsibilities
    The U.S. Pacific Command was responsible for the initial planning 
for the movement of Marine Corps forces to Guam. In August 2006, the 
Office of the Secretary of Defense directed the Navy to establish JGPO 
to facilitate, manage, and execute requirements associated with the 
rebasing of Marine Corps assets from Okinawa to Guam, including the 
planning for all the other remaining military realignments on Guam. 
Specifically, JGPO was tasked to lead the coordinated planning efforts 
among all the DOD components and other stakeholders to consolidate, 
optimize, and integrate the existing DOD infrastructure on Guam. The 
office's responsibilities include integration of operational support 
requirements, development, and program and budget synchronization; 
oversight of the construction; and coordination of government and 
business activities. JGPO is expected to work closely with the local 
Guam government, the government of Japan, other federal agencies, and 
Congress in order to manage this comprehensive effort and to develop a 
master plan.
    The Secretary of the Interior has administrative responsibility 
over the insular areas for all matters that do not fall within the 
program responsibility of other federal departments or agencies. Also, 
the Interior Secretary presides over the Interagency Group on Insular 
Areas and may make recommendations to the President or heads of 
agencies regarding policy or policy implementation actions of the 
federal government affecting insular areas. The Secretary, as the 
presiding officer of this interagency group, established a Working 
Group on Guam Military Expansion to address issues related to the 
military buildup. The working group includes representatives of the 
Departments of State, Agriculture, Health and Human Services, Labor, 
Justice, Transportation, Housing and Urban Development, Education, and 
Veterans Affairs as well as the Navy, the Small Business 
Administration, the Office of Management and Budget, and others. Five 
ongoing subgroups were established to discuss policy and resource 
requirements relating to (1) labor and workforce issues, (2) Guam 
civilian infrastructure needs, (3) health and human services 
requirements, (4) the environment, and (5) socioeconomic issues.

 DOD HAS ESTABLISHED A FRAMEWORK FOR MILITARY BUILDUP ON GUAM, BUT THE 
                      PLANNING PROCESS IS ONGOING

    The U.S.-Japan Defense Policy Review Initiative has established the 
framework for the future of the U.S. force structure in Japan, 
including the realignments on Okinawa and Guam. However, no final 
decision on the exact size and makeup of the forces to move to Guam, 
including their operational, housing, and installation support 
facilities, has been made. The environmental impact statement expected 
in 2010 may affect many key planning decisions.
Framework for the Military Realignment and Buildup
    DOD has established various planning and implementation documents 
that serve as a framework to guide the military realignment and buildup 
on Guam. Originally, the Marine Corps realignment was discussed in the 
U.S.-Japan Defense Policy Review Initiative, which established the 
framework for the future of U.S. force structure in Japan designed to 
create the conditions to reduce the burden of American military 
presence on local Japanese communities and to create a continuing 
presence for U.S. forces by relocating units to other areas, including 
Guam. In its Defense of Japan 2006 publication, the Japan Ministry of 
Defense reported that more than 70 percent of U.S. facilities and areas 
are concentrated in Okinawa and regional development has been greatly 
affected by the concentration.\14\ That publication recommended that 
the relocation of the U.S. Marine Corps forces from Okinawa to Guam 
should occur as soon as possible. It further noted that based on 
bilateral meetings in 2005 and 2006, the government of Japan had 
decided to support the United States in its development of necessary 
facilities and infrastructure, including headquarters buildings, 
barracks, and family housing, to hasten the process of moving Marine 
Corps forces from Okinawa to Guam.
---------------------------------------------------------------------------
    \14\ Japan Ministry of Defense, Defense of Japan 2006 (Japan: 
October 2006).
---------------------------------------------------------------------------
    Subsequently, in July 2006, the U.S. Pacific Command developed the 
Guam Integrated Military Development Plan\15\ to provide an overview of 
the projected military population and infrastructure requirements; 
however, it provides limited information on the expected effects of the 
military buildup on the local community and off base infrastructure. 
The plan is based upon a notional force structure that was used to 
generate land and facility requirements for basing, operations, 
logistics, training, and quality of life involving the Marine Corps, 
Army, Navy, Air Force, and Special Operations Forces in Guam. Also, 
JGPO has completed its first phase of the Guam master planning process 
and developed basic facility requirements with general cost estimates 
and mapping concepts. The second phase of the master planning is in 
progress and will include more detailed infrastructure requirements, 
facility layouts, and cost estimates for fiscal years 2010 and 2011. 
JGPO is developing a planning-level Guam joint military master plan 
that will be submitted to congressional staff by September 15, 2008. 
However, that plan is not considered a final master plan since DOD is 
awaiting the results of the environmental impact statement and record 
of decision, which are due in 2010.
---------------------------------------------------------------------------
    \15\ U.S. Pacific Command, Guam Integrated Military Development 
Plan.
---------------------------------------------------------------------------
Size and Makeup of Forces and Other Variables Are Not Yet Known
    The exact size and makeup of the forces to move to Guam and the 
operational, housing, and installation support facilities required are 
not yet fully known. While the U.S.-Japan Defense Policy Review 
Initiative identified Marine Corps units for relocation from Okinawa, 
assessments are still under way within DOD to determine the optimal mix 
of units to move to Guam, which may also include Marines from other 
locations, such as Hawaii and the continental United States.
    Approximately 8,000 Marines and their estimated 9,000 dependents of 
the Third Marine Expeditionary Forces Command Element, Third Marine 
Division Headquarters, Third Marine Logistics Group Headquarters, 1st 
Marine Air Wing Headquarters, and 12th Marine Regiment Headquarters are 
expected to be included in the move to Guam. The Marine Corps forces 
remaining on Okinawa will consist of approximately 10,000 Marines plus 
their dependents of the Marine Air-Ground Task Force. While these broad 
estimates provide a baseline, according to DOD officials we spoke with, 
the Marine Corps is still determining the specific mix of units and 
capabilities needed to meet mission requirements on Guam. In addition, 
Marine Corps officials said that the department was reviewing the mix 
of units moving to Guam in light of the department's plan to increase 
the number of Marines to 202,000 from 180,000.\16\
---------------------------------------------------------------------------
    \16\ The planned increase in the Army's and Marine Corps' forces 
collectively is commonly referred to as Grow the Force.
---------------------------------------------------------------------------
    The number and mix of units is significant because, according to 
Marine Corps officials, the operational, housing, and installation 
support facilities on Guam will depend on the type, size, and number of 
units that will make the move. That determination will define the 
training and facility requirements, such as the number and size of 
family housing units, barracks, and schools and the capacity of the 
installation support facilities needed to support the military 
population and operations. In response to the ongoing assessment by the 
Marine Corps, JGPO officials said that they were initiating a master 
plan that will reflect the building of ``flexible'' infrastructure that 
could accommodate any mix of military units that may move to Guam. 
However, the lack of information on the number and mix of forces makes 
it difficult to provide an accurate assessment of specific facility and 
funding requirements at this time.
Results of the Required Environmental Impact Statement May Affect 
        Several 
        Key Decisions
    Before JGPO can finalize its Guam master plan, it will need to 
complete the required environmental impact statement. According to DOD 
officials, the results of the environmental statement, currently 
expected to be issued in 2010, can affect many of the key decisions on 
the exact location, size, and makeup of the military infrastructure 
development.
    On March 7, 2007, the Navy issued a public notice of intent to 
prepare an environmental impact statement pursuant to the requirements 
of the National Environmental Policy Act of 1969 (NEPA),\17\ as 
implemented by the Council on Environmental Quality Regulations,\18\ 
and Executive Order 12114. The notice of intent in the Federal 
Register\19\ states that the environmental impact statement will:
---------------------------------------------------------------------------
    \17\ National Environmental Policy Act of 1969, codified as amended 
at 42 U.S.C. Sec. 4321-4347.
    \18\ 40 C.F.R. pts. 1500-1508.
    \19\ 72 Fed. Reg. 10186-7 (Mar. 7, 2007).

  <bullet> Examine the potential environmental effects associated with 
        relocating Marine Corps command, air, ground, and logistics 
        units (which comprise approximately 8,000 Marines and their 
        estimated 9,000 dependents) from Okinawa to Guam. The 
        environmental impact statement will examine potential effects 
        from activities associated with Marine Corps units' relocation 
        to include operations, training, and infrastructure changes.
  <bullet> Examine the Navy's plan to enhance the infrastructure, 
        logistic capabilities, and pier/waterfront facilities to 
        support transient nuclear aircraft carrier berthing at Naval 
        Base Guam. The environmental impact statement will examine 
        potential effects of the waterfront improvements associated 
        with the proposed transient berthing.
  <bullet> Evaluate placing a ballistic missile defense task force 
        (approximately 630 solders and their estimated 950 dependents) 
        in Guam. The environmental impact statement will examine 
        potential effects from activities associated with the task 
        force, including operations, training, and infrastructure 
        changes.

    JGPO officials recognize that the results of this environmental 
assessment process may affect the development and timing of JGPO's 
master plan for Guam. Under NEPA and the regulations established by the 
Council on Environmental Quality, an environmental impact statement 
must include a purpose and need statement, a description of all 
reasonable project alternatives and their environmental effects 
(including a ``no action'' alternative), a description of the 
environment of the area to be affected or created by the alternatives 
being considered, and an analysis of the environmental impacts of the 
proposed action and each alternative.\20\ Further, accurate scientific 
analysis, expert agency comments, and public scrutiny are essential to 
implementing NEPA. For example, federal agencies such as DOD are 
required to ensure the professional integrity, including scientific 
integrity, of the discussions and analyses contained in the 
environmental impact statement. Additionally, after preparing a draft 
environmental impact statement, federal agencies such as DOD are 
required to obtain the comments of any federal agency that has 
jurisdiction by law or certain special expertise and request the 
comments of appropriate state and local agencies, Native American 
tribes, and any agency that has requested that it receive such 
statements. Until an agency issues a final environmental impact 
statement and record of decision, it generally may not take any action 
concerning the proposal that would either have adverse environmental 
effects or limit the choice of reasonable alternatives.
---------------------------------------------------------------------------
    \20\ 40 C.F.R. Sec. 1502.13-1502.16.
---------------------------------------------------------------------------
    DOD officials stated that performing these alternative site 
analyses and cumulative effects analyses may delay the completion of 
Guam master plan and thus affect the construction schedule of military 
facilities needed to accommodate thousands of Marines and dependents by 
the 2014 goal identified in the Defense Policy Review Initiative. DOD 
will submit its fiscal year 2010 budget request to Congress for the 
first phase of military construction projects prior to the completion 
of the environmental impact statement. Thus, DOD may be asking Congress 
to fund the military construction projects without the benefit of a 
completed environmental impact statement or a final decision on the 
full extent of its facility and funding requirements. DOD officials 
said that this practice of requesting funding during the development of 
environmental impact statements is common within the department for 
large projects, such as major base realignments and closures. JGPO 
officials told us that immediately after the environmental impact 
statement and record of decision are completed, the department will 
commence construction of facilities in efforts to meet the 2014 goal. 
However, other DOD and government of Guam officials believe that this 
is an ambitious and optimistic schedule considering the possibility 
that the environmental impact statement could be delayed, the 
complexities of moving thousands of Marines and dependents from Okinawa 
to Guam, and the need to obtain funding from the United States and 
Japan to support military construction projects.

 SEVERAL DOD AND GOVERNMENT OF GUAM CHALLENGES HAVE YET TO BE ADDRESSED

    DOD and the government of Guam face several significant challenges 
associated with the military buildup, including addressing funding and 
operational challenges and community and infrastructure impacts, which 
could affect the development and implementation of their planning 
efforts. First, DOD has not identified all funding requirements and may 
encounter difficulties in obtaining funding given competing priorities 
within the department. Second, DOD officials need to address the 
operational and training limitations on Guam, such as for sea and 
airlift capabilities, and training requirements for thousands of 
Marines. Third, the increase in military personnel and their dependents 
on Guam and the large number of the construction workers needed to 
build military facilities will create challenges for Guam's community 
and civilian infrastructure.

DOD Faces Funding Challenges
    The military services' realignments on Guam are estimated to cost 
over $13 billion. Included in this $13 billion cost estimate, the 
Marine Corps buildup is estimated to cost $10.3 billion. However, these 
estimates do not include the estimated costs of all other defense 
organizations that will be needed to support the additional military 
personnel and dependents on Guam. For example, the Defense Logistics 
Agency, which will help support the services' influx of personnel, 
missions, and equipment to Guam, will likely incur additional costs 
that are not included in the current estimate. Also, the costs to move 
and accommodate Marine Corps units from locations other than Okinawa to 
Guam are not included in the estimate. In addition, the costs 
associated with the development of training ranges\21\ and facilities 
on nearby islands are not included in the current estimate for the 
military buildup. According to JGPO officials, the total costs for the 
military buildup will eventually be identified and integrated into 
JGPO's master plan for Guam.
---------------------------------------------------------------------------
    \21\ Adequate training ranges are critical to maintaining military 
readiness.
---------------------------------------------------------------------------
    Of the $10.3 billion estimate for the Marine Corps buildup, the 
government of Japan is expected to contribute up to $2.8 billion in 
funds without reimbursement for the construction of facilities, such as 
barracks and office buildings. The government of Japan is also expected 
to provide another $3.3 billion in loans and equity investments for 
installation support infrastructure, such as on base power and water 
systems, and military family housing. Most of this $3.3 billion is 
expected over time to be recouped by Japan in the form of service 
charges paid by the U.S. government and in rents paid by American 
servicemembers with their overseas housing allowance provided by DOD.
    In addition, according to DOD officials, there are several 
conditions that must be met before the government of Japan contributes 
to the cost of the Marine Corps move. First, the government of Japan 
has stipulated that its funds will not be made available until it has 
reviewed and agreed to specific infrastructure plans for Guam. Second, 
failure or delay of any initiative outlined in the Defense Policy 
Review Initiative may affect the other initiatives, because various 
planning variables need to fall into place in order for the initiatives 
to move forward. For example, DOD officials expect that if the Futenma 
replacement facility in Okinawa (estimated to cost from $4 billion to 
$5 billion) is not built, the Marine Corps relocation to Guam may be 
canceled or delayed. Previously, the United States and Japan were 
unsuccessful in closing and replacing Marine Corps Air Station Futenma 
as a part of the Special Action Committee on Okinawa process in 
1996.\22\ DOD officials view the success of the Futenma replacement 
facility as a key objective of the initiative that will need to be 
completed in order for other realignment actions to take place, 
including the move to Guam. Finally, the government of Japan may 
encounter challenges in funding its share of the Marine Corps move 
considering Japan's other national priorities and its commitments 
associated with funding several other major realignments of U.S. forces 
in Japan under the Defense Policy Review Initiative.
---------------------------------------------------------------------------
    \22\ The United States and Japan are continuing their effort to 
close and replace Marine Corps Air Station Futenma as a part of the 
Defense Policy Review Initiative.
---------------------------------------------------------------------------
DOD Faces Operational Challenges
    Operational challenges, such as providing appropriate mobility 
support and training capabilities to meet Marine Corps requirements, 
have not been fully addressed. According to Marine Forces Pacific 
officials, the Marine Corps in Guam will depend on strategic military 
sealift and airlift to reach destinations in Asia that may be farther 
away than was the case when the units were based in Okinawa. For 
example, in a contingency operation that requires sealift, the ships 
may have to deploy from Sasebo, Japan, or other locations to collect 
the Marines and their equipment on Guam and then go to the area where 
the contingency is taking place, potentially risking a delayed arrival 
at certain potential trouble spots. According to Marine Corps 
officials, amphibious shipping capability and airlift capacity are 
needed in Guam, which may include expanding existing staging facilities 
and systems support for both sealift and airlift. The Marine Corps 
estimated additional costs for strategic lift operating from Guam to be 
nearly $88 million annually.
    Existing training ranges and facilities on Guam are not sufficient 
to meet the training requirements of the projected Marine Corps force. 
A DOD analysis of training opportunities in Guam concluded that no 
ranges on Guam are suitable for the needs of the projected Marine Corps 
force because of inadequacy in size or lack of availability. U.S. 
Pacific Command is also in the process of conducting a training study 
that covers both Guam and the Commonwealth of the Northern Mariana 
Islands to see what options are available for training in the region. 
Marine Forces Pacific officials stated that live-fire artillery 
training, amphibious landings, and tracked vehicle operations will be 
challenging because of the combination of factors associated with the 
limited size of training areas available and the environmental concerns 
on the Northern Mariana Islands.

Increase in Military Presence Is Likely to Cause Local Community and 
        Infrastructure Challenges
    The increase in military presence is expected to have significant 
effects on Guam's community and infrastructure, and these challenges 
have not been fully addressed. This undertaking is estimated to 
increase the current Guam population of approximately 171,000 by an 
estimated 25,000 active duty military personnel and dependents (or 14.6 
percent) to 196,000. The Guam population could also swell further 
because DOD's personnel estimates do not include defense civilians and 
contractors who are also likely to move to Guam to support DOD 
operations.
    DOD and government of Guam officials recognize that the military 
buildup will have significant effects on the local community. For 
example:

  <bullet> As a result of the military buildup on Guam, construction 
        demands will exceed local capacity and the availability of 
        workers, though the extent to which the local workers can meet 
        this increase has yet to be determined. For example, on the 
        basis of trend data, government of Guam officials estimate the 
        current construction capacity to be approximately $800 million 
        per year, as compared with the estimated construction capacity 
        of more than $3 billion per year needed by DOD to meet the 
        planned 2014 completion date. In addition, Guam currently faces 
        a shortage of skilled construction workers. Preliminary 
        analysis indicates that 15,000 to 20,000 construction workers 
        will be required to support the projected development on Guam. 
        One estimate is that Guam may be able to meet only 10 to 15 
        percent of the labor requirement locally, a concern to federal, 
        military, and local officials. Nearby countries may have 
        workers willing to come to Guam to take jobs to construct 
        needed facilities, but these workers will have to temporarily 
        enter the United States on temporary nonagricultural workers 
        visas, currently capped at 66,000 per year. JGPO officials said 
        that legislation recently passed by both the Senate and the 
        House of Representatives that will increase the cap in the 
        short term is a first step toward addressing many of their 
        concerns with temporary nonagricultural workers visas.

  <bullet> The government of Guam has expressed several concerns about 
        the potential effects of an influx of foreign workers on Guam's 
        community. The Civilian Military Task Force recommended that 
        Guam needs to establish a department that would focus on 
        processing foreign workers. Further, a government of Guam 
        report stated that the influx of foreign workers would put a 
        strain on existing emergency care services, medical facilities, 
        and public utilities.

    In addition, DOD and government of Guam officials recognize that 
the island's infrastructure is inadequate to meet the increased demand 
due to the military buildup. For example:

  <bullet> Guam's commercial port has capacity constraints with pier 
        berthing space, crane operations, and container storage 
        locations. The military buildup requires a port with double the 
        current capacity, and military cargo is expected to increase 
        sixfold during construction of facilities required for the 
        buildup.
  <bullet> Guam's two major highways are in poor condition and, when 
        ordnance (ammunition and explosives) is unloaded from ships for 
        Andersen Air Force Base now and for the Marine Corps in the 
        future, the ordnance must be transported on one of these major 
        roads that run through highly populated areas. The current 
        highway system also experiences slippery surfaces, potholes, 
        and occasional flooding. Traffic between military installations 
        and commercial, business, and residential areas is anticipated 
        to increase significantly with the military buildup.
  <bullet> Guam's electrical system--the sole power provider on the 
        island--is not reliable and has transmission problems resulting 
        in brownouts and voltage and frequency fluctuations. The system 
        may not be adequate to deliver the additional energy 
        requirements associated with the military buildup.
  <bullet> Guam's water and wastewater treatment systems are near 
        capacity and have a history of failure due to aged and 
        deteriorated distribution lines. The military buildup may 
        increase demand by at least 25 percent.
  <bullet> Guam's solid waste facilities face capacity and 
        environmental challenges as they have reached the end of their 
        useful life. Currently, the solid waste landfills in Guam have 
        a number of unresolved issues related to discharge of 
        pollutants and are near capacity.

   GOVERNMENT OF GUAM'S PLANNING EFFORTS ARE IN THEIR INITIAL STAGES

    The government of Guam's planning efforts to address infrastructure 
challenges associated with the buildup of military forces are in the 
initial stages, and several uncertainties further contribute to the 
difficulties the government of Guam faces in developing precise plans 
to address the effects of the military buildup on the local community 
and infrastructure. In addition, funding sources to address 
infrastructure challenges are uncertain. As we have found with some 
communities experiencing civilian and military population growth 
surrounding Army installations in the continental United States, the 
government of Guam will likely ask for assistance to provide civilian 
infrastructure improvements.
    Two recent studies that examine the various effects of the military 
buildup on the local infrastructure and community were developed by the 
government of Guam and KPMG. First, the Governor of Guam commissioned 
the Civilian Military Task Force to develop a plan that would both 
accommodate the military personnel expansion and provide opportunities 
for the Guam community. The task force issued its report in November 
2007, which provided a synopsis of the various funding and resource 
needs.\23\ Second, the government of Guam contracted KPMG to examine 
the needs and challenges Guam faces in regard to the military buildup. 
The October 2007 report made preliminary assessments on the effects of 
the military buildup on Guam's infrastructure, economy, and social 
services.\24\ One study estimated that more than $3 billion will be 
required for civilian infrastructure and government services to address 
the military buildup.\25\
---------------------------------------------------------------------------
    \23\ Guam Civilian Military Task Force, Planning for Military 
Growth: November 2007 Needs Assessment (Hagatna, Guam: Nov. 2007).
    \24\ PMG, Conduct Studies Associated with Military Growth and 
Integration Initiatives for the Island of Guam (Oct. 31, 2007).
    \25\ According to KPMG, the cost estimates and figures presented in 
the study are incomplete and were not verified or validated by 
government of Guam or KPMG officials. Moreover, KPMG officials 
concluded that more work in terms of testing and analysis needed to be 
conducted on financial data presented in the report.
---------------------------------------------------------------------------
    The uncertainties associated with exact size, makeup, and timing of 
the forces to be moved to Guam make it difficult for the government of 
Guam to develop comprehensive plans to address the effects of the 
proposed military buildup. Guam officials said that without accurate 
information it is difficult to develop an infrastructure program that 
identifies civilian construction projects and financing to support the 
military buildup and to form an administrative structure to oversee and 
coordinate project scheduling and implementation. In our September 2007 
report on communities experiencing civilian and military population 
growth at continental U.S. Army installations, we found that without 
knowing whether Army headquarters-level offices or the local base plans 
have accurate information about the expected growth, communities are 
not well positioned to plan for and provide adequate schools, housing, 
transportation, and other infrastructure.
    As discussed previously, government of Guam officials recognize 
that the island's infrastructure is inadequate to meet the projected 
demand and will likely require significant funding to address this 
challenge. However, the extent to which the government of Guam will be 
able to obtain financial assistance for projected infrastructure 
demands from the federal government is unclear. Government of Guam 
officials we met with were uncertain as to whether and to what extent 
federal grant programs will be available to address Guam's public 
infrastructure to support the military realignments. On the basis of 
its initial review, KPMG reported that the data it collected from the 
government of Guam suggested that it is likely there will be a 
significant funding gap between the availability of funds and 
requirements for Guam's infrastructure program.\26\ KPMG further 
reported that $282 million in federal funding was provided to Guam in 
2006. Without additional federal assistance, government of Guam 
officials believe that local infrastructure improvements to accommodate 
the military buildup would take decades to complete. In our September 
2007 report on U.S. communities experiencing civilian and military 
population growth at Army installations, we found that communities will 
likely incur costs to provide adequate schools, transportation, and 
other infrastructure improvements.\27\ Because of limited local 
funding, some of these communities are seeking federal and state 
assistance.
---------------------------------------------------------------------------
    \26\ See footnote 24.
    \27\ See GAO-07-1007.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or any members of the committee may have at 
this time.

    The Chairman. Thank you very much.
    Thank you all for your excellent testimony. Let me just ask 
a few questions.
    Congresswoman Bordallo, let me ask you--first of all, you 
spoke about your proposal to have memoranda of understanding 
between Guam and the Federal Government concluded. Have you 
spoken to the administration about this recommendation? Have 
you gotten any reaction from them? What reaction has that been?
    Ms. Bordallo. Mr. Chairman, I did bring this up at the last 
IGIA meeting, which was chaired by Mr. Kempthorne. So, he's 
aware of it. The request came from our own local agencies, 
because it seems that, when they come to Washington to talk 
about this buildup, that--each time, they're faced with another 
representative from the Federal Government. In other words--or 
from the Federal agency--they're not meeting with the same 
people all the time, and they have to go through the whole 
explanation of the buildup. So, they wanted some kind of a 
commitment, you know, in writing, a memorandum of 
understanding.
    I think it's important, because, you know, we will have a 
change of administration, and there be--may be a chance that 
the new Cabinet member may not--you know, he'll say, ``Well, it 
wasn't under my watch,'' so--``I don't know anything about 
it''--so, we would like to have this. I think it would give it 
more of a feeling of permanency. I--everyone is aware of it, 
Senator.
    The Chairman. OK.
    Let me ask Mr. Pula or General Bice if you have thoughts 
about whether this makes sense, to try to get memoranda of 
understanding, or is that really not practicable, to get 
something like that done at this stage, toward the end of an 
Administration.
    General Bice. Mr. Chairman, let me speak just for the 
Department of Defense aspects there.
    We see nothing wrong with memorandums of understanding. In 
fact, we've been working with the Guam Port Authority, the 
Government of Guam, and the Maritime Administration, through 
the--through our Office of Economic Adjustment, and forming a 
MOU over MARAD's assistance to the port. We see these 
partnership agreements as a good model so that we can have a 
sense of understanding what each roles will be played there, 
and what the potential outcomes can be.
    As you know, of course, the--you know, none of the 
Departments can commit future funding; only Congress can do 
that. So, you know, the limitation, in terms of the funding 
aspect, is always there, but it, in fact, as far as a MOU, a 
partnership agreement, we think that's the right way--approach 
to go.
    The Chairman. Mr. Pula, did you have a comment?
    Mr. Pula. Yes. I think the Congresswoman did bring it up in 
IGIA. I think all--everybody in the meeting heard about it.
    Let me just preface it by saying, we don't have any 
problems with MOUs. The only concern that I have would be, 
every time--and I'm sure everybody appreciates this--in budget 
process, you've got to have certain requirements. Before you 
lay out a budget--and when the requirements aren't there, it's 
difficult to--you know, to go to--at the process in the 
Department and go to OMB and say, ``Hey, you know, we need 
this,'' when the requirements are not really there. And I think 
that's one of the problems the IGIA sister agencies have been 
having, looking at DOD, JGPO, as well as GovGuam, about getting 
the requirements down so they could have some numbers to work 
with. And it would be much easier when we get that. But, until 
we get that, it's very difficult to make some sort of 
commitment to it. And that's my----
    The Chairman. Governor Camacho, did you have a comment?
    Mr. Camacho. Yes. I understand the intent of an MOU, as 
proposed by the Congresswoman, and it primarily would be to 
allow for continuity as you would have a transition from one 
administration to the next, an agreement, at least from--and a 
commitment from the Federal Government on how to proceed with 
the buildup. But, I think we need something more substantial, 
and that would be a commitment in the way of an appropriation 
measure that would commit funding, at least for the civilian 
side.
    We do understand that the buildup is reflective of what is 
needed for the military buildup within the fenceline and for 
military facilities on Guam. But, as mentioned, the impact that 
will occur outside the fenceline with the civilian community is 
one that cannot be borne by the people of Guam alone.
    When you think of the severe impact the magnitude of--which 
will occur, and the fact that we have, currently, only 170,000 
people on the island, with existing debt and existing 
commitments already for projects that have occurred over the 
last several decades, to add additional--an additional debt 
burden on the people of Guam to fund the infrastructure by way 
of partnerships, by way of partnering with the private sector 
and bringing other developers in, would still be a cost that 
has to be borne by the people. I don't think any community of 
that size can have the financial capability of shouldering that 
burden, which is why we come and are hoping that there is a 
realization that it is a Federal commitment that also must be 
matched on the financial end.
    As I mentioned, the delta between what we have planned for 
on--in the way of normal growth, and now the impact which will 
occur in the compressed timeline because of the buildup, is--
it's a wide gap. I tell you, honestly and sincerely, chairman, 
that the people of Guam cannot bear that burden. It would break 
our backs financially. So, we are asking for a Federal 
commitment, above and beyond an MOU.
    The Chairman. OK. Let me ask, Governor, one other question. 
I believe Mr. Pula has an estimate, in his written testimony, 
there will be an increase in the GDP of Guam by 22 percent, and 
that tax revenues are expected to double as a result of the 
buildup. Does your government have any independent estimate on 
those items? Do you have an estimate as to how much of an 
increase you will see in gross domestic product or in tax 
revenues available to the government?
    Mr. Camacho. Certainly one of the grant requests that we're 
putting forward to the Office of Economic Adjustment under DOD 
is certainly that, would be conduct a financial feasibility 
study by economists to clearly point out whatever revenues are 
expected. But, the promises of tomorrow, and revenues that will 
be generated, such as a 22-percent increase in GDP and the 
doubling of revenues, are simply that, they are promises to 
come. What we need now are finances and moneys for now, for 
today, so that we can adequately prepare for the buildup.
    As mentioned, we need a firm, solid foundation upon which 
to build, and it must be concurrent and run parallel on the 
same timelines with that which we expect in the military 
community. If we fall short on that, then there's just no way 
that we can couple up and support the military, as necessary.
    We want to ensure that this is mutually beneficial. It's a 
once-in-a-lifetime opportunity, Mr. Chairman, to get it right. 
We've got one shot. But, we certainly need help in this regard.
    The Chairman. General Bice, let me ask you--on this 
agreement we've got with Japan now, on funding, where they pick 
up a portion of the funding, as I understand it, that's limited 
to on-base projects. There are a lot of systems, including 
power and water and solid waste and all, that are really 
communitywide, that would not be eligible to participate in any 
of the funding from Japan. Is that right, or not?
    General Bice. Mr. Chairman, the way the financial 
arrangements from the Government of Japan is that they will 
provide $2.8 billion in direct cash for United States military 
facilities on base; that's barracks, headquarters buildings, 
and the like. They will also provide $2.5 billion for--in forms 
of a--financial instruments through a public/private 
partnership, they call a ``special-purpose entity,'' for 
housing. That is, they will build the housing, and the military 
members will rent those homes through the overseas housing 
allowance that the Department of Defense provides to the 
membership there. That's how those are paid back.
    Similarly, for the--for utilities, the Government of Japan 
has agreed to upgrade utilities on Guam in support of the 
Marine relocation, up to $740 million; again, through a public/
private partnership. With the special-purpose entity--unlike a 
strict military construction project, which would be on-base 
only, with the public/private partnership, we can, in fact, 
extend that capability off-base. Currently, we are in 
discussions and in studies with the Government of Japan on 
utilities.
    I'll just give an example. One of the options for power 
generation is to build a power plant on base, and then they 
would build transmission lines that would connect to all the 
Marine facilities all around the island. That may not 
necessarily be the most cost-beneficial, cost-effective way of 
doing it. Another option is to build a power plant off base and 
plug that power plant into the Guam grid. Then, the Marines and 
other Department of Defense would draw--again, draw upon the 
Guam grid. We're currently going through a business-case 
analysis for all the options, all the ranges there; that 
includes off-base analysis there.
    My Government of Japan colleagues have encouraged us to put 
all options on the table, and we'll use the business-case 
analysis to determine which options fits them. We're hopeful 
that, through these options, we can, in fact, have a positive 
benefit to the people of Guam by improving their 
infrastructure, as well.
    The Chairman. OK, that's helpful information. I appreciate 
that.
    Mr. Pula, could you briefly describe the Guam Task Force's 
role in the budget process, as you understand it? I mean, to 
what extent is it coordinated with requests within the White 
House? How do you ensure that the desires and conclusions of 
the Guam Task Force are taken into account?
    Mr. Pula. Thank you, Mr. Chairman.
    Let me say, the interagency group is chaired by the 
Secretary of the Interior. It does not have any binding 
authority, in terms of a budget process, with other agencies. 
It is a forum where other Federal agencies of the 
Administration will come and listen to other concerns that are 
brought up by the insular areas.
    More specifically to your question of how we've been 
doing--working on the Guam buildup lately is, we've had this 
task force with the Joint Guam Program Office, JGPO, and OIA. 
We've been working together very closely, on a daily/weekly 
basis, phone calls, trying to get the other sister agencies to 
bring to bear what they feel their requirements are, based on 
information coming from GovGuam and DOD.
    I would be remiss if I don't mention that there's a lot of 
frustration, because, you know, as time is pressing, like 
everybody is mentioning up, we need to get some numbers. We're 
talking about 2010, and the budget cycle is coming; you know, 
we need information today. So, we've been trying to push this 
issue.
    The Secretary of the Interior, Kempthorne, personally got 
on the phone last year and called Secretary Gates when the 
Governor of Guam and the Lieutenant Governor asked him for 
help. As a result, we have Assistant Secretary B.J. Penn, who 
came and went out with the Secretary. So, there's a close 
relationship there.
    But, like I mentioned earlier, in order for us to get 
budget numbers to go through the departments, and, therefore, 
get some sort of approval for 2010, we really need the solid 
requirement, so that we can base this----
    The Chairman. You're talking about the solid requirements 
that you're hoping to get from the Department of Defense, or 
from the Government of Guam, or both, or what?
    Mr. Pula. Both.
    The Chairman. OK. I----
    General Bice. If I could say, Senator----
    The Chairman. General Bice, sure.
    General Bice [continuing]. Mr. Chairman, we are working 
closely with the Government of Guam and all the chairs of the 
working groups, the five working groups established, to 
identify the requirements. What we want to do is come up with a 
prioritized listing of all of those requirements, and work that 
through this Interagency Task Force to identify the funding 
requirements for--especially for fiscal year 1910. Hopefully we 
can bring together some senior leadership among the Federal 
departments and have a meeting, later on this spring, to talk 
about the FY-10 funding profiles that are going to be developed 
within the various Federal agencies and departments, because we 
see that, as the Governor mentioned, you know, the time is 
pressing, time is now, and we've got to get started.
    The Chairman. I would think, with this 2010 budget cycle 
coming on very quickly here, or already started, probably the 
most immediate thing would be to be sure that the 
Administration is asking the Congress for adequate funds in all 
these different areas when that budget is submitted to us early 
next year. Of course, that will be prepared by this 
Administration before it leaves office, not by the new 
Administration, as I understand it.
    Governor.
    Mr. Camacho. Mr. Chairman, it is true that we have been 
working and trying to provide the numbers necessary to make a 
good case. What's alarming is that it was only recently, in the 
past few months, when we brought the matter to the attention of 
Federal agencies, that there was any awareness of this military 
buildup on Guam. Recognizing the lack of information provided 
to the rest of the agencies necessary, it is reflected in the 
fact that fiscal year 2008, fiscal year 2009 budgets have been 
missed. OMB pointedly mentioned to us that we have missed the 
opportunity, that the train had left the station, that the only 
opportunity we had to submit for any budget request would be 
for 2010.
    Recognizing that there was a lack of awareness, we had gone 
to the--Region 9, and they have a Working Regional Council. The 
reason I went there was that they have specific knowledge with 
oversight of programs in Guam, and we had to inform them about 
the buildup and the fact that there would be an impact, and 
that they had to be aware of what would come in a few short 
years. Working--and I have to commend the Department of the 
Interior and Secretary Kempthorne, because we then took it to 
the national level. I figured, if we can get advocates at the 
regional level, they can help us make our case in the national 
level. So, it is here and now that we are making our case.
    When we heard of the buildup that would occur, that's when 
we formed this Interagency Task Force, or Civilian-Military 
Task Force on Guam, to pull in all sectors to--and we did a 
needs assessment. Along those lines, as information was 
brought, then the utilities began to plan. When we understood 
the full breadth and scope and impact of the buildup, it's then 
that we realized, ``My gosh, there's got to be a tremendous 
amount of work put into this.''
    So, yes, time is running out, and we want to make sure we 
catch the train before it leaves the station for fiscal year 
2010. But, perhaps there are opportunities we're looking for in 
the supplemental budgets, if those occur whatsoever, for fiscal 
year 2008 or 2009, where we can get on it.
    If I may, the priority is recognizing that goods will have 
to come in, construction will begin in a year and a half, by 
2010, should all plans fall into place. That means we would 
need a sixfold increase in the capacity of our seaport to 
handle the goods coming through. Once they come through the 
ports, we then need to make sure that our roads would be able 
to handle the traffic and the goods that would flow to the 
constructionsites. So, transportation is absolutely essential. 
Then, when you couple the fact that there are going to be 
15,000 additional construction workers on Guam that are coming 
in, with the additional families, by 2012, or starting then, on 
to 2014, our health care system and the ability for our 
hospital to handle that workload, again, is going to be 
tremendous.
    So, I think you can begin to see the picture of where we're 
heading.
    So, the sense of urgency and the short timeline that we are 
faced with, and the limited capacity of an island community to 
fund and comply with the buildup on our side, is going to be 
very, very challenging, sir.
    The Chairman. Yes, Congresswoman Bordallo.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    I bring up the point of the MOU. That's why it's so 
important. The point of the MOU is to identify what will be in 
the administration's request for 2010, 2011, 2012, 2013, 2014. 
How else can Guam plan for projects if we don't have some kind 
of an idea? It could be a generic MOU. Of course, the Governor 
spoke about the funding being included. Whatever the case. But, 
I think there is a very, very crucial need for the MOUs.
    Now, when it comes to priorities--we spoke about 
priorities, Mr. Chairman. In my opinion, the greatest 
infrastructure challenge at this time is the improvement of our 
port. Both the Department of Defense and the Port Authority of 
Guam have identified the port as a potential choke point as the 
buildup moves forward. The containers are going through the 
port, they're expected to nearly double, maybe triple, during 
the bulk of construction activities. So, if we can't get 
materials into the island with the buildup, it'll be slowed 
down, prices could increase. So, I feel that the top priority 
in funding right now--top challenge would be the enhancement, 
the expansion of the port.
    Also, I support public/private--somebody spoke about the 
public/private ventures. I support that. We have one that we're 
pursuing right now to bring an additional three cranes to Guam. 
Currently, there is only one, Mr. Chairman. Certainly we need 
help in that area.
    Then, I think, for your information, Mr. Chairman, I have 
already seen and gone through the tentative military--the DOD 
master plan for this buildup. I just spoke to the Governor, and 
the GovGuam Master Plan is still pending--not ready, as yet. 
So, we're working on it, but I think this has to be in place, 
as well, so we can make plans for the future.
    The Chairman. OK. Let me thank everybody, here.
    Let me just mention, Mr. Lepore, we'll continue to call on 
GAO to monitor this for us and keep us informed as to what the 
needs are, and how well they're being met, and the timing.
    Mr. Lepore. We look forward to being of assistance to you, 
Mr. Chairman.
    The Chairman. Very good.
    Let me also indicate, I'm particularly interested in 
following up with this general idea of an MOU to identify the 
specific funding requirements. I think doing it as a 
President's Memo would help to engage the White House and the 
Office of Management and Budget in a more direct way in 
coordinating and prioritizing the budget requirements for the 
2010 budget, and that's obviously of top priority. So, I hope 
we can follow up with you and work with you to see that that 
happens.
    I think this has been useful testimony, and obviously there 
are a lot of major challenges, for both the United States 
Government and the Government of Guam, coming up very quickly. 
So, thank you all for being here.
    That'll conclude our hearing.
    [Whereupon, at 3:17 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of General David Bice to Questions From Senator Bingaman

    Question 1. What are the estimated funding requirements for Federal 
agencies to complete the EIS for the build-up, and are those funds 
available? If not, what steps are being taken to secure them?
    Answer. FY08 funding requirements for Federal and local agencies 
that are supporting the EIS for the Guam relocation effort total $5.5 
million. The Department of the Navy is evaluating options for obtaining 
the funds. Because of the scope, complexity, and the short time 
suspense, Federal agencies are not in a position to resource the EIS 
adequately without additional funding.

                         PORT OF GUAM CAPACITY

    Question 2. I understand that the Port of Guam lacks the capacity 
to meet the expected surge in shipping. Please briefly describe the 
situation and how you expect it to be resolved?
    Answer. The port is vital to Guam's economic health and serves as a 
critical link in the supply chain for all of Guam and the Department of 
Defense. The goods and material flowing through the port sustain the 
quality of life for all residents. Concurrently, the Port Authority of 
Guam (PAG) has just completed the PAG's Master Plan Update and Governor 
Camacho has approved the Master Plan Update and forwarded it to the 
Guam Legislature for their approval.
    The Port of Guam requires significant improvement and upgrading. 
The port has not been modernized since it was constructed in the 
1960's. Typically, most ports are modernized every twenty years. The 
port is long overdue for modernization initiative, however, the demand 
for greater handling capacity to adequately handle the flow of 
construction materials and supplies during the military construction 
phase and the expected increase in capacity post the construction phase 
serves as a catalyst for the port's modernization.
    The principal areas of improvement of the highest priority:

  <bullet> Replacement of cranes
  <bullet> Modernization of the container cargo handling and tracking 
        system
  <bullet> Expansion of the container yard
  <bullet> Training of workforce to support expanded port and cargo 
        handling operations

    The Department of Navy is pleased to see the partnership being 
developed by the Department of Transportation's Maritime Administration 
(MARAD) and the Guam Port Authority. Recent legislation introduced in 
the House would allow MARAD to support a public private partnership 
with the Port of Guam. Such partnerships have been successful around 
the country, and we are confident MARAD can offer technical and 
financial solutions for the Port Authority. Moreover, we are pleased to 
see the Port Authority has produced a draft master plan that provides 
direction for the port expansion and modernization.

                        UTILITIES INFRASTRUCTURE

    Question 3. Does the military intend to establish its own water, 
power, waste water systems, and landfill, or become a customer of the 
local civilian systems?If DOD plans to be a customer of the civilian 
systems, does DOD plan to provide assistance, including financial 
assistance, to the local government to expand and improve those 
systems?
    Answer. The US-Japan agreement for relocating Marines from Okinawa 
to Guam provides for upgrades to utility systems to support the 
strategic realignment. The Government of Japan has agreed to provide up 
to $740 million for the utility upgrades. These upgrades are to be 
funded by a Japanese public-private-partnership arrangement. This 
arrangement allows options to be considered that include improvements 
to the utility systems outside military facilities. The Navy has 
completed its technical studies as to the requirements in each of the 
four areas of utilities to determine the current and projected demand 
for usage. Business case studies are ongoing to determine the preferred 
options to meet the growth in the demand for utilities services 
associated with the Guam military relocation effort. These options 
include possible private-public partnerships with local utilities and 
the Government of Guam to meet this demand. The business case studies 
will identify preferred alternatives which will allow us to better 
determine the options including improvements to the civilian 
infrastructure.

                           OEA GRANTS TO GUAM

    Question 4. I understand that OEA (DOD's Office of Economic 
Adjustment) has given Guam approximately $1.7m for 2 grants.Is there an 
estimate of Guam's planning costs and does OEA plan on providing Guam 
with the additional planning funds that will be needed? Does OEA 
provide other types of assistance such as professional staff?
    Answer. The Office of Economic Adjustment (OEA) is providing both 
technical and financial assistance to the Government of Guam, working 
directly through the governor's office. The OEA has awarded two grants 
to date.
    The Phase I grant focused on the following: 1) establishment of a 
responsible organization, under Guam legislation, to oversee the 
Military Integration and Growth (MIG) that would transcend changes in 
the executive and legislative branches; 2) preliminary baselining of 
the challenges or issues; 3) logical follow on course of actions; 4) 
logistical support to the governor's office (travel funding); 5) 
establishment of video teleconferencing (VTC) capability within the 
governor's office; and 6) preliminary community outreach.
    The Phase II grant include the following: 1) Port of Guam Financial 
Feasibility Study; 2) Port Community Outreach and Consensus Building; 
3) funding for additional staff within the governor's office dedicated 
to the MIG Initiative; and 4) logistical support to the governor's 
office.
    In concert with the two grants the OEA has and continues to provide 
technical assistance to the governor's office. The OEA proactively 
facilitated several instrumental meetings: 1) Federal Regional Council 
(FRC) Region IX, a consortium of 18 Federal agencies and Departments 
that oversee approximately 30 major programs in Region IX, which 
includes the Territory of Guam; (The FRC developed a FRC Action Plan 
specifically for Guam that includes quarterly meetings with the 
Governor of Guam and assignment of FRC point of contacts to work with 
the Government of Guam Departments.) 2) Outer Pacific Committee (OPC) 
is a sub-committee to the FRC, with responsibility for the Western 
Pacific Islands; (The OPC oversees annual grants totaling approximately 
$690 million to the Western Pacific Islands, which includes 
approximately $280 million to Territory of Guam) and 3) Maritime 
Administration meetings, which led to a partnership agreement and an 
MOU.
    The OEA is working with the governor's office on several other 
initiatives including, but not limited to the following: 1) Port of 
Guam Implementation Plan--specific action plan to oversee the Guam Port 
Modernization Initiative; 2) Guam Compatibility Sustainability Study 
(CSS)--land use planning initiative that fosters sound decision making, 
which balances economic development while ensuring military operational 
sustainability; and 3) Fiscal Impact Analysis (FIA)--the FIA will tier 
off the Navy's Socioeconomic Impact Assessment; a component of the Navy 
EIS.

      PLANS AND POLICIES TO MITIGATE OFF-BASE ENVIRONMENTAL IMPACT

    Question 5. What are the military's plans and policies for 
mitigating environmental impacts off-base? For example, have mitigation 
funds been identified?
    Answer. Mitigation of environmental impacts off-base will be 
identified in the National Environmental Policy Act (NEPA) process and 
negotiated as required by applicable resource laws and existing DOD 
policies. The ongoing identification process and future mitigation 
negotiations are underway with appropriate federal and local 
departments and agencies during environmental partnering sessions. We 
anticipate that the outcome of these partnering sessions will result in 
an environmental impact mitigation strategy and resource plan, signed 
by all partners, prior to the late 2009 Final Environmental Impact 
Statement (FEIS). DOD's share of the mitigation costs would come from 
each Service's MILCON budgets.

              DOD PLANS TO ADDRESS BROWN TREE SNAKE ISSUES

    Question 6. The brown tree snake is a substantial invasive species 
problem in Guam and threatens other Pacific Islands. What measures does 
DOD have planned to prevent further movement of this and other invasive 
species during the construction phase of the build-up?
    Answer. As a member of the Micronesia Regional Invasive Species 
Council (RISC), the Joint Guam Program Office, along with the National 
Invasive Species Council, is working with the member states such as 
Palau, Yap, Guam, and CNMI, to develop early detection and rapid 
response procedures for invasive species, such as the Brown Tree Snake, 
to be utilized throughout the region. These procedures will be 
incorporated into a DOD invasive species management and control plan 
that will be followed during the construction phase. Micronesia RISC 
has also been included in the participants of DOD / regulatory agency 
partnering sessions conducted to ensure environmental considerations 
associated with the relocation and construction effort are addressed. 
Additionally, engineering controls such as snake proof barriers will be 
incorporated into designs on a risk based analysis. Further, this is an 
opportunity to enhance inspection and quarantine facilities and 
personnel capacity by subject matter experts at all Guam ports of entry 
and exit, to including government and commercial facilities.

    DOD PUBLIC SAFETY AND LAW ENFORCEMENT SUPPORT TO LOCAL COMMUNITY

    Question 7. Please describe plans to assist the local community 
with public safety/law enforcement during the construction phase, 
particularly with respect to foreign workers?
    Answer. The public safety/law enforcement issues associated with 
population increases are inherently Inter-Agency in nature. Therefore, 
the Joint Guam Program Office, in partnership with the Department of 
Interior, is involving the appropriate Federal and local law 
enforcement agencies to address the impacts associated with a large 
foreign workforce. In addition to regular Inter-Agency Task Force 
meetings that address a broad range of socio-economic issues, the Joint 
Guam Program Office will host a Public Safety Forum in Guam later this 
year with key stakeholders from federal and local law enforcement 
agencies to further develop plans and policies on the subject.

                           WORKFORCE HOUSING

    Question 8. Please describe plans for workforce housing. For 
example, will temporary workers be housed on DOD land, GovGuam land, or 
on land leased from private owners? Do you expect there to be plans for 
turnover of temporary labor housing for other uses after the 
construction period ends?
    Answer. In August 2007 and March 2008, Naval Facilities and 
Engineering Command (NAVFAC) and the Joint Guam Program Office (JGPO) 
sponsored Industry Forums on Guam to educate business leaders and 
investors on the requirements and opportunities related to the Guam 
military construction phase. Temporary worker housing was one of the 
key items discussed. The general consensus that has developed through 
our interaction with industry and the community is that workforce 
housing should be developed by our industry partners and that DOD 
(NAVFAC specifically) should develop regulations and enforceable 
contract provisions for workforce housing to ensure health care, 
adequate living standards, pay, etc. As no construction contracts have 
been awarded yet, the location and future use of the worker housing has 
yet to be determined. Guidelines for how workforce housing will be 
utilized after the construction period is complete will be included in 
the development of the regulations and contract provisions governing 
the workforce housing.

       PLANS AND FUNDING SOURCES FOR TRAINING OF LOCAL RESIDENTS

    Question 9. Please describe plans, including funding sources, to 
train local permanent residents for jobs that will be created by the 
build-up?
    Answer. Through the Inter-Agency Task Force meetings, the Joint 
Guam Program Office (JGPO), Department of Interior (DOI) and Department 
of Labor (DOL) are working towards a $1 million initiative to build 
infrastructure for an apprenticeship program on Guam. The Guam 
Department of Labor received $15,000 in funding from DOI to hire a 
consultant to assist the pursuit of a $250,000 regional innovation (or 
``planning'') grant from DOL to address issues of data collection, 
needs assessment, and regional workforce leadership outreach. Inter-
agency efforts have also resulted in several initiatives at the Guam 
Community College (GCC) where a diesel mechanical class and 
construction boot camp have been added to their Construction Trades 
Program. In addition, the Government of Guam is preparing a Request for 
Proposals on their Allied Health building construction project to 
support health care worker training. Other entities, including the Guam 
Contractor's Association Trades Academy, in cooperation with the GCC 
and University of Guam (UoG), are increasing capacity in a four-year 
apprenticeship program. This includes classes in the heavy equipment, 
safety, carpentry, heating/ventilation/air conditioning, and electrical 
trades. They are also exploring ways to expand their programs into 
neighboring islands.

          FINANCIAL ASSISTANCE FOR LOCAL HEALTH AND EDUCATION

    Question 10. Does DOD plan to provide financial assistance to the 
local community to expand and improve its health and education capacity 
and facilities?
    Answer. Transitional programs resulting from population increases 
associated with the Guam military relocation effort are inherently 
Inter-Agency in nature. The Joint Guam Program Office (JGPO), in 
conjunction with the Department of Interior (DOI), is involving the 
appropriate Federal agencies to identify requirements and the budget 
necessary to meet the anticipated increased demand for social services, 
including health and education. These agencies will request from 
Congress the funding necessary to assist Guam with the challenges of 
expanding its health and education capability and capacity.

    Responses of General David Bice to Questions From Senator Akaka

     ON INCLUSION OF VA IN DOD PLANS FOR EXPANDED PRESENCE IN GUAM

    Question 11. The Joint Guam Program Office is working with a number 
of agencies in preparing for an expanded military presence on Guam. 
Although veterans on Guam receive in-patient and certain out-patient 
services from the Naval Hospital on Guam, the Department of Veterans 
Affairs is not included in the planning.Why has the VA not been 
involved in the planning deliberations?
    Answer. The interagency task force formed under the auspices of the 
Department of Interior led Interagency Group on Insular Affairs (IGIA) 
developed five working groups. The Health and Human Service working 
group, led by the Department of Health and Human Services with the 
Department of the Navy's Bureau of Medicine (BUMED) as a working group 
participant, has recently identified veterans' care on Guam as a 
concern and is reaching out to the VA to address the issues.

              SERVICES FOR VETERANS AT GUAM NAVAL HOSPITAL

    Question 12. Currently the Naval Hospital serves an estimated 1,500 
veterans. Services provided to veterans and the reimbursements paid by 
VA to the Naval Hospital are not considered in the hospital's budget or 
in the planning for a new hospital. Veterans requiring specialty care 
may be denied services by the Naval Hospital due to lack of providers, 
such as dermatologists. Private providers do not exist for many 
specialties.What actions can be taken to assure that services to 
veterans will not be further degraded as additional servicemembers and 
their families are added to the treatment population?
    Answer. USNH Guam is resourced to provide healthcare for active 
duty and TRICARE Prime enrollees. The VA clinic, which manages the 
primary care for 1500 beneficiaries, and USNH Guam have an agreement 
for USNH Guam to provide available inpatient and outpatient services 
for referred veterans on a space available, reimbursable basis.
    Prior to implementing any options, a detailed healthcare 
requirement analysis for the veterans must be performed. It is 
recommended that this include analysis of requirements for federal 
employees and contract workers (eligible to receive healthcare at the 
MTF) required for support of military build-up and the forecasted 
number of active duty Guard and Tricare Reserve Select (TRS) personnel.
    Options for consideration include:

          1. VA increase necessary healthcare resources locally to 
        provide needed services for veteran population based on current 
        and forecasted disease management.
          2. VA examines the possibility of agreements with accredited 
        facilities in the region, Philippines and Thailand, to provide 
        specialist and sub-specialist healthcare not available at USNH 
        Guam or in the local community.
          3. Modification of USNH Guam's mission to include provision 
        of services to veterans and other personnel noted in option 1 
        on a non-space available basis, with allocation of additional 
        resources devoted to facilities, staffing and equipment.
          4. Combining options 1 and 3 in a joint venture.

         ON ADDING A PSYCHIATRIST TO GUAM NAVAL HOSPITAL STAFF

    Question 13. As of last year, the Naval Hospital had no 
psychiatrist on staff and no plans to add a psychiatrist to the staff. 
Many servicemembers are reported to have incurred mental health 
conditions as the result of their combat service.Have any plans been 
developed to add psychiatric and other mental health professionals to 
serve the expected increase in servicemembers and families relocating 
to Guam.
    Answer. Naval Hospital Guam is manned with two psychiatrists (one 
of which has been deployed over the last two years) and one clinical 
psychologist. Other mental health assets include a contracted social 
worker who can provide psychotherapy, four psychiatric technicians who 
can assist with intake surveys of mental health patients, and three 
substance abuse counselors.
    This level of staffing meets the current demand and needs of the 
active duty and dependent community. The projected increase in 
beneficiaries from all military services will likely result in an 
increased demand signal for mental health providers, ancillary staff, 
and social services. Health Care Requirements Analysis (HCRA) will 
drive resourcing the future mental health care needs.

FUNDING NEEDED TO PROVIDE HEALTH CARE TO IMMIGRANT CONSTRUCTION WORKERS 
                              AND FAMILIES

    Question 14. It is anticipated that a large number of foreign 
construction workers, possibly with families will be relocating to Guam 
to assist in developing the infrastructure to accommodate the 
relocating servicemembers and their families. Some of these may need 
health care. The community clinics on Guam are already feeling the 
influx of immigrants with no alternative source of health care.What 
assistance is needed to provide the resources necessary to address the 
health care needs of these workers and their families.
    Answer. While it is not anticipated the foreign construction 
workers will bring family members to Guam, health care for those 
workers supporting the Guam military construction program is a concern. 
We are currently working with private industry partners that provide 
logistical support for workforces in remote locations around the world 
to find solutions for health care and other issues associated with 
bringing a large number of foreign construction workers to Guam.
   Response of General David Bice to Question From Senator Murkowski

 SUITABILITY OF VISA WAIVER IN THE 2008 CONSOLIDATED NATURAL RESOURCES 
                                  ACT

    Question 15. On April 29, 2008, the House passed the Consolidated 
Natural Resources Act, which included, among other things, a waiver of 
the H-2B visa caps for temporary workers in Guam and the Mariana 
Islands. General, you mentioned in your testimony that large amounts of 
temporary workers will be needed for the military and civilian 
construction projects between now and 2014 and that the Guam workforce 
can not supply sufficient labor. Will the enactment of this visa waiver 
provision sufficiently address the military's workforce needs over the 
next six years? Is anything further needed in terms of legislation to 
ensure that you have the skilled labor that you need for this buildup?
    Answer. The Consolidated Natural Resources Act of 2008, Pub. L. 
110-229, contains provisions changing the immigration laws of the 
Commonwealth of the Northern Marianas Islands (CNMI). Among the 
changes, the Act provides for a waiver of the cap on H visas, including 
the H2B visa used by skilled construction workers, for Guam and CNMI. 
This waiver becomes effective with the start of the transition period, 
which begins in the first full month one year after the passage of the 
act, or May 1, 2009, and extends through December 31, 2014. An 
extension of the transition period beyond December 31, 2014 and the 
associated H visa waiver cap is possible, but only for CNMI. This 
provision will address concerns associated with securing qualified 
skilled construction workers through the transition period.
                                 ______
                                 
     Response of Brian J. Lepore to Question From Senator Bingaman

    It was a pleasure to appear before the Committee on May 1, 2008, to 
discuss civilian impacts from the proposed military buildup on Guam.\1\ 
This letter responds to your request that I provide answers to 
questions for the record for the hearing. The questions and my answers 
follow.
---------------------------------------------------------------------------
    \1\ GAO, DEFENSE INFRASTRUCTURE: Planning Efforts for the Proposed 
Military Buildup on Guam Are in Their Initial Stages, With Many 
Challenges Yet To Be Addressed, GAO-08-722T (Washington, D.C.: May 1, 
2008).
---------------------------------------------------------------------------
    Question 1a. Mr. Lepore, on page 19 of your testimony you note that 
the initial estimate for the cost of civilian infrastructure and 
services to address the buildup was $3 billion, but that these cost 
estimates and figures are incomplete, and not verified or validated. 
You also stated that GAO will be reporting to Congress on its ongoing 
review of the buildup. Will GAO's ongoing review include: validation of 
the cost estimates for civilian infrastructure; an assessment of Guam's 
planning and management capacity; and an evaluation of Guam's capacity 
to finance projects?
    Question 1b. Do you believe this information would be useful?
    Answer. Our ongoing review of the Department of Defense's (DOD) 
overseas infrastructure master plans and master planning efforts for 
Guam will not include a validation of the cost estimates for civilian 
infrastructure, an assessment of Guam's planning and management 
capacity, or an evaluation of Guam's capacity to finance projects 
because these areas fall outside of the scope of our current review 
mandated by the Senate reports accompanying the military construction 
appropriation bills for fiscal years 2004 and 2007.\2\ In response to 
the mandate, we are determining (1) the extent DOD's fiscal year 2009 
master plans reflect recent changes in U.S. overseas basing strategies 
and address the challenges DOD faces in implementing its plans; (2) the 
status of DOD's planning effort for the buildup of military forces and 
infrastructure on Guam; and (3) the extent DOD has identified and 
addressed its infrastructure and funding requirements, training needs, 
and other challenges associated with the proposed military buildup on 
Guam. We believe that information on the validity of the civilian 
infrastructure cost estimates, Guam's planning and management capacity, 
and Guam's capacity to finance projects would be useful to the Congress 
in carrying out its oversight responsibilities and to DOD, other 
federal departments and agencies, and the government of Guam to plan 
for and address the civilian infrastructure challenges and associated 
financial challenges from the proposed military buildup.
---------------------------------------------------------------------------
    \2\ S. Rep. No. 108-82, at 13-14 (2003) and S. Rep. No. 109-286, at 
15 (2006).
---------------------------------------------------------------------------
     Response of Brian J. Lepore to Question From Senator Murkowski

    Question 2. On April 29, 2008, the House passed the Consolidated 
Natural Resources Act, which included, among other things, a waiver of 
the H-2B visa caps for temporary workers in Guam and the Mariana 
Islands. You mentioned in your testimony that large amounts of 
temporary workers will be needed for the military and civilian 
construction projects between now and 2014 and that the Guam workforce 
cannot supply sufficient labor. Will the enactment of this visa waiver 
provision sufficiently address the military's workforce needs over the 
next six years? Is anything further needed in terms of legislation to 
ensure that DOD has the skilled labor needed for this buildup?
    Answer. Section 1184(g)(1)(B) of Title 8, U.S. Code, provides that 
no more than 66,000 H-2B visas may be issued to qualified foreign 
workers each fiscal year.\3\ However, under the Consolidated Natural 
Resources Act of 2008, during an initial period that begins 
approximately 1 year after enactment but which may be delayed 180 days 
and that ends December 31, 2014, qualified nonimmigrant workers may be 
admitted to Guam or the Commonwealth of the Northern Mariana Islands 
(CNMI) under the H-2B visa process established pursuant to the 
Immigration and Nationality Act\4\without counting against the 
numerical limitation referenced above.\5\ After the initial period ends 
on December 31, 2014, this temporary exemption from the overall 
numerical limitation expires.\6\
---------------------------------------------------------------------------
    \3\ The H-2B category applies to residents of foreign countries who 
are coming to the United States temporarily to perform nonagricultural 
temporary labor or service if unemployed persons capable of performing 
such labor or service are unable to be found in the United States (8 
U.S.C. Sec.  1101(a)(15)(H)(ii)(B)). For additional regulations 
pertinent to the issuance of H-2B visas, see also 8 C.F.R. Sec.  
214.2(h).
    \4\ 8 U.S.C. Sec.  1101 et. seq.
    \5\ The Consolidated Natural Resources Act of 2008 also provides 
for a temporary exemption from the overall numerical limitations on 
various kinds of H-1B visas under 8 U.S.C. Sec.  1184(g)(1)(A).
    \6\ See GAO, COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS: Pending 
Legislation Would Apply U.S. Immigration Law to the CNMI with a 
Transition Period, GAO-08-466 (Washington, D.C.: Mar. 28, 2008).
---------------------------------------------------------------------------
    According to officials from DOD's Joint Guam Program Office--the 
office established to plan and execute the military buildup on Guam--
this temporary exemption from the overall numerical limitation on H-2B 
visas addresses the department's concerns associated with securing 
construction workers needed during the next 6 years. According to these 
officials, a further statutory change may be needed if construction 
extends beyond this period.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

          Questions for Nikolao I. Pula From Senator Bingaman

    Question 1. I understand that non-defense federal agencies may not 
have the funding needed to participate in the NEPA process and keep 
this timeline on schedule. Please briefly describe the efforts of the 
Environment Working Group to address this problem, and what the 
solution appears to be?
    Question 2. On page five of your testimony you identify port 
facilities, key roads, and worker barracks as projects of critical 
concern--they must be completed before construction can begin. Has 
planning reached the point that fund for these critical projects has 
been identified?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

         U.S. Commonwealth of the Northern Mariana Islands,
                                      Washington, DC, May 15, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Chairman Bingaman: I apologize for being unable to attend the 
Senate Energy Committee's May 1, 2008 hearing on the military build-up 
on Guam, and the impact on the civilian community, planning, and 
response. I was fulfilling my duty as required by CNMI law and 
informing the CNMI Legislature of my activities in Washington during 
the previous year.
    Please accept this statement which I have compiled with comments 
and suggestions from the members of the Tinian Legislative Delegation, 
for the record.
            Sincerely,
                                          PEDRO A. TENORIO,
                                          Resident, Representative.

Statement of Pedro A. Tenorio, Resident Representative, Commonwealth of 
                      the Northern Mariana Islands

    Thank you for allowing me to submit this statement on the military 
buildup on Guam, as a result of the upcoming transfer of the 3rd Marine 
Expeditionary Forces from Okinawa.
    The world is rapidly changing and countries that were once 
inconsequential to our national consciousness are now major players in 
the global economy. The nations comprising the Asian continent 
represent both partners and threats to our economy and to national 
security.
    The transfer of the 3rd Marine Expeditionary Forces from Okinawa to 
Guam is a relatively short move of about 1400 miles. However, this 
transfer should be seen as an opportunity for our entire nation to 
adjust its perceptions and assumptions. Guam and the Commonwealth of 
the Northern Mariana Islands have for some time been viewed as 
insignificant insular possessions in the backwaters of the Pacific. 
This is an opportunity for these islands to be seen as America's face 
to Asia.
    Right now that face, as far as the CNMI is concerned, is not an 
image this great nation wants the world to see, and I look forward to 
having many discussions with this committee on how things can be 
improved. For today I would like to focus on direct impacts of this 
upcoming transfer.
    When the Marianas Political Status Commission was negotiating the 
Covenant, we agreed to 100 year leases for 17,800 acres of land on 
Tinian and the island of Farallon de Medinilla for $983 and $100 per 
acre, respectively. We agreed to these bargain basement prices on these 
long term leases because of the anticipation of a permanent military 
presence that would provide consistent economic activity that would 
form the basis of our economy. Unfortunately we were negotiating in a 
post-Vietnam era and military expansion turned out not to be a 
politically viable option. In other words, the proposed military 
project never became a reality and this valuable land on Tinian has 
never delivered the economic promise that we expected.
    The U.S. still holds the lease, and I urge the Department of 
Defense to find a more constructive and permanent use of this land. I 
have strongly urged DOD to establish a permanent training facility on 
Tinian, and the CNMI would be open to other types of permanent 
installations. This request is nothing new. My predecessor, the 
Honorable CNMI Resident Representative Juan N. Babauta, made several 
requests to Congress and DOD to establish a continuous presence in 
Tinian in hopes of spurring economic activity (please see letter to 
Secretary Rumsfeld). The Tinian leadership has also made numerous 
similar appeals over the years. Yet, at the date of today's hearing, 
more than twenty-five years after the land acquisition agreement, 
practically nothing has been done leaving a full two-thirds of the 
island of Tinian to remain fallow. I believe that if DOD does not 
develop concrete plans for the use of their land on Tinian, Congress 
should declare these lands as ``surplus property'' and be returned to 
the CNMI.
    It is encouraging hearing that studies for the entire region are 
being conducted and the feasibility of a ``warm base'' in Tinian is 
being proposed which would require the construction of temporary 
structures and ensuring some sort of military presence. However, the 
people of the CNMI deserve more concrete plans rather than mere 
concepts in order to properly plan and prepare. Also, while a recurring 
temporary presence by the military in Tinian would be helpful, a 
permanent presence would ensure sustained economic activity and 
validate the long-term lease agreement.
    Prior to the actual relocation of Marines to Guam, the CNMI stands 
ready and willing to assist as the U.S. military carries out this 
immense relocation process. The CNMI has many resources that may be 
used to support construction, transportation and lodging during the 
relocation infrastructure improvement phase. One possibility could 
include using our construction companies to prefabricate concrete 
panels to be used for military buildings and houses then having them 
shipped to Guam. This practice was applied years ago when concrete 
panels were prepared in Guam before being shipped to Saipan to build 
the Naval Administration's offices and homes.
    Other factors that I urge this committee to consider and assist the 
good people of the Commonwealth on are:

          1. Increased monitoring of the volcanoes on the northern 
        islands of the Marianas Archipelago. They present a threat to 
        commercial and military air traffic, potential military 
        exercises, and the public health as ash and sulfur dioxide gas 
        are frequently carried by winds to the populated islands of 
        Saipan, Tinian, Rota and Guam. The lack of a monitoring system 
        also inhibits economic development and any prospective 
        resettlement to these islands. (please see attached letter to 
        Senator Feinstein)
          2. Amending the authorizing legislation for the Office of 
        Economic Adjustment to include the CNMI so that we can pursue 
        funding in anticipation of the impact of the buildup. (please 
        see draft amendment)
          3. Funding for the rehabilitation, repair and improvements to 
        the Tinian harbor, a joint use facility as agreed to in the 
        Covenant. The Army Corps of Engineers estimates the repairs at 
        $25.5 million.
          4. In addition, the leadership of the island of Tinian has 
        several concerns regarding the use of the military retention 
        area. These include the location of solid waste and waste water 
        treatment facilities on military land, designation of grazing 
        and agricultural areas nears the retention areas, and 
        reimbursement of the water studies cost. The Tinian 
        municipality owes $1.3 million to the U.S. Geological Survey 
        for exploratory water wells drilled throughout the 1990s, many 
        of which were drilled within the retention area. Since the 
        military plans to use the northern half of Tinian for training 
        purposes, we are requesting payment to the USES be shared 
        between the Municipality of Tinian and the U.S. military.

    I look forward to further dialogue with the U.S. military and this 
committee.
    Thank you.
      Commonwealth of the Northern Mariarn Islands,
Office of the Resident Representative to the United States,
                                 Washington, DC, February 28, 2001.
Hon. Donald H. Rumsfeld,
1000 Defense, The Pentagon Washington, DC.
    Dear Mr. Secretary: The Northern Mariana Islands, which I represent 
here in Washington, have an important role in the US defense posture in 
the western Pacific. One of our islands, Farallon de Mendenilla, serves 
for air and naval target practice. Another, Tinian, is leased in large 
part to the US military and is used for amphibious assault exercises. 
Offshore our island of Saipan, US prepositioned ships stand ready for 
deployment in the event of emergency in the Asian region.
    The Northern Marianas are proud of our role in national defense and 
are willing to do more, which is my immediate reason for writing.
    Press reports this week indicate that pressures continue to build 
within the Japanese government for a reduction of US military presence 
on Okinawa.
    Governor Keiichi Inamine raised the issue in a public forum for the 
first time and additionally suggested that US military activities could 
be shifted to Guam.
    I would like to bring to your attention the lands controlled by the 
US military on the island of Tinian and their availability as another 
site to which some activities currently undertaken in Okinawa could 
potentially be moved.
    While it is the case that there has been discussion of the Tinian 
tease being voided in order to make room for economic development on 
the island, a substantial US military presence there would equally 
address the desire of Tinian's residents for increased economic 
activity.
    Long term decisions about the place of Okinawa in US defense 
strategy are, I'm sure, highly complex. I wanted, however, to be sure 
that alternatives in addition to Guam, such as those provided by 
locations in the Northern Marianas, are fully considered.
    Thank you for your consideration of this matter. I look forward to 
hearing from you.
            Sincerely,
                                           Juan N. Babauta,
                                           Resident Representative.

  U.S. Commonwealth of the Northern Mariana Islands
                     Office of the Resident Representative,
                                      Washington DC, April 4, 2008.
Hon. Dianne Feinstein,
Chairwoman, Appropriations Subcommittee for Interior, Environment, and 
        Related Agencies, Washington, DC.
    Dear Chairwoman Feinstein: The Commonwealth of the Northern Mariana 
Islands is an archipelago of 14 islands in the Western Pacific. While 
only three islands, Saipan, Rota and Tinian, are permanently inhabited, 
two of the others, Anatahan and Pagan are no longer inhabited because 
of their active volcanoes which additionally pose various threats to 
the region. The Anatahan Volcano is in a state of continuous gas and 
ash emission after a dramatic explosive awakening in 2003 and Pagan was 
evacuated during a major eruption in 1981 and has not been resettled.
    During the winter months northerly winds become laden with sulfur 
dioxide gas (S02) and ash particulates from Anatahan causing a public 
health concern to people with respiratory problems on Saipan and Guam 
to the south. Eruptions dispel volcanic ash into the air which pose a 
considerable threat to some 10,000 airline passengers who transit the 
region each day (ingestion of volcanic ash has caused in-flight engine 
failures over Indonesia and Alaska), and could interfere with planned 
military exercises in the region arising from the Department of Defense 
military buildup on Guam. Potential volcanic activity prevents the 
resettlement and the development of the economic potential for 
geothermal energy and ecotourism on Pagan.
    After the 2003 eruption, the USGS Volcano Hazards Program (VHP) 
installed 3 seismic stations on Anatahan to monitor its activity. 
Unfortunately one of these stations has since been buried in ash and 
the remaining two provide only enough data to detect the onset of 
eruptions but not enough to forecast eruptive activity. Seismic data 
from these stations are telemetered to CNMI's Emergency Management 
Office (EMO) in Saipan, where the USGS also maintains an SO2 monitoring 
system, in partnership with EMO. Pagan is currently not monitored. 
Because of heavy commitments to ongoing eruptions in Alaska, Hawaii, 
and Washington, the USGS has not been able to expand its monitoring by 
installing or replacing equipment in the Marianas.
    Nothing can be safely done on the island of Pagan or around the 
island of Anatahan and the health and safety of tens of thousands of 
others in the regions are at risk until these two volcanoes are 
properly monitored to provide data for an early warning system. This 
gives urgency to the establishment of a Northern Mariana Islands 
Volcano Observatory (NMIVO).
    I respectfully request your committee to provide an additional $1M 
every year in the USGS budget to fund the installation and maintenance 
of adequate seismic monitoring networks on Anatahan and Pagan 
volcanoes. These networks, together with the ongoing satellite remote 
sensing and geological analyses by USGS scientists, would provide to 
the CNMI (as well as FAA, NWS, and DOD): (1) forecasts and warnings of 
volcanic eruptions; (2) reports of current activity status; (3) hazard 
assessments for use in guiding development of the islands; (4) a web 
site that makes much of the data available to the public in real time; 
(5) close cooperation with CNMI officials, providing objective 
scientific advice on volcano hazard issues; and (6) opportunities for 
science education outreach and for science field experiences for local 
college students.
    Thank you for your assistance.
            Sincerely,
                                          PEDRO A. TENORIO,
                                           Resident Representative.
                                 ______
                                 
                   Members of United States Congress

    We the citizens for peace and justice on Guam voice our concern 
over the scheduled transfer of 8000 U.S. Marines and the increased 
military buildup on Guam and the Asia/Pacific region post-September 11, 
2001.
    We believe that increased militarization will put our families, 
friends, and relatives who are living on Guam in harm's way rather than 
provide safety and stability. We voice our concern about the recent US 
policy and actions that would make our island home more of a target. 
These actions include the following: the planned expansion of runways 
on Guam, the presence of B-2 bombers, joint military exercises taking 
place on aircraft carriers near Guam, and the greater naval presence 
including the planned expansion of naval military facilities with more 
nuclear submarines and aircraft carriers.
    We the citizens for peace and justice acknowledge that the US 
military policy is related to U.S. economic policy, in which the 
valuation of the Chinese currency not being tied to the U.S. dollar, 
the huge trade imbalance that the US has with China, and the Chinese 
owning a significant portion of the US debt through purchase of US 
treasury bonds in order to support the US insatiable appetite for 
Chinese products, has put the US economically vulnerable.
    We the citizens for peace and justice on Guam know first hand the 
impacts of war on our families, and we believe that conflicts should, 
first and foremost, be resolved peacefully.
    We acknowledge that the US, as the administering power, has both 
the moral and legal responsibility to protect the human rights to self-
determination of the Chamorros, the indigenous people of Guam. As 
determined by the UN, increased militarization and lack of consent by 
the Chamorro people, infringes upon the right to self-determination.
    We call upon the support of local, national, and international 
communities to urge our leaders to:

  <bullet> stop the export and import of weapons, warfare technology, 
        and to discontinue military exercises
  <bullet> promote peaceful resolution of differences
  <bullet> ensure informed consent and the human rights of the Chamorro 
        people
  <bullet> put on hold indefinitely the military buildup on Guam and in 
        the Asia/Pacific region

    Sincerely,
                    Malia Abulencia, Guam; Charissa Aguon, Guam; Heavan 
                            Aguon, Guam; Julian Aguon, Guam; Roque N. 
                            Aguon, Guam; Bernie Aguon-Hernandez, Guam; 
                            Timothy Jay Alcon, Guam; Maya Alons, Guam; 
                            Angella Alvarez-Forbes, Guam; Frank Arceo, 
                            Guam; Kacy Arceo-Muna, Guam; Antonio Artero 
                            Sablan, Guam; Brandon Babao Cruz, Guam; Leo 
                            Babauta, Guam; Lisa Baza, Guam; Antoinette 
                            F. Blas, Guam; Christie Blas Sellers, Guam; 
                            Carlo J.N. Branch, Guam; Keith L. Camacho, 
                            Guam; Michael Camacho, Guam; Leonard 
                            Casambros Leynes,Guam; Fanai Castro, Guam; 
                            Robert N. Celestial, Guam; Hoi Yin Chan, 
                            Guam; Norita K. Charfauros, Guam; Karen N. 
                            Charfauros, Guam; Anelle Cristobal, Guam; 
                            Erisa Cristobal, Guam; Hope Cristobal, 
                            Guam; Jesse Cruz, Guam; Lawrence J. 
                            Cunningham, Guam; Art De Oro, Guam; Macylyn 
                            S. Duenas, Guam; Devin-Shane Duenas, Guam; 
                            Asherdee Duenas, Guam; Sirena Duenas, Guam; 
                            Flora Duenas, Guam; David Enoch Gee II, 
                            Guam; Alana Fejerang, Guam; Jan Furukawa, 
                            Guam; Barbara Guerrero Cepeda, Guam; Jessie 
                            Gumabon, Guam; Gary Heathcote, Guam; 
                            Marianna Hernandez, Guam; William 
                            Hernandez, Guam; Josphine C. Jackson, Guam; 
                            Victoria M. Leon Guerrero, Guam; Michael 
                            Liberatore, Guam; Lily Llaneta, Guam; Dave 
                            Lotz, Guam; Jeremy Lujan Bevacqua, Guam; 
                            Lillian Manglona, Guam; Mark Manglona, 
                            Guam; Yvonne Manglona, Guam; Marcus Allen 
                            Manglona, Guam; Mason Allan Manglona, Guam; 
                            Anita Manibusan, Guam; Eric Manibusan, 
                            Guam; Tanya Manibusan, Guam; Danielle 
                            Marie, Guam; Frank Martinez, Guam; Shannon 
                            Murphy, Guam; Lisa Linda Natividad, Guam; 
                            Barbara F. Nauta, Guam; James Oelke, Guam; 
                            Peter R. Onedera, Guam; Ebony Paulino, 
                            Guam; Filamore Palomo Alcon, Guam; Jacob M. 
                            Perez, Guam; Madonna Perez, Guam; Robert 
                            Perez, Guam; Dominic Perez, Guam; Anne 
                            Perez Hattori, Guam; Ed Pocaigue, Guam; 
                            Debbie Quinata, Guam; Allan Quinata, Guam; 
                            Frank B. Rabon, Guam; Arlene Rivera Cura, 
                            Guam; Christine Roberto, Guam; Patrick 
                            Sablan, Guam; Patrick J. Sablan, Guam; 
                            Patria Sablan, Guam; Alma Salalila, Guam; 
                            Marilyn C. Salas, Guam; Sean R. Sanchez, 
                            Guam; Jamela A. Santos, Guam; Brian Santos, 
                            Guam; Angela Santos, Guam; Brandon-Scott 
                            Santos, Guam; Tatiana Santos Guam; Kie 
                            Susuico Guam; John Susuico, Guam; Rita S. 
                            Susuico, Guam; Mana Tafuga Tainatongo, 
                            Guam; Barbara Tainatongo, Guam; Michael 
                            Taitague Mesa, Guam; AbuRose Taitingfong, 
                            Guam; Trini Torres, Guam; Anthony A. Vigil, 
                            Jr., Guam; Robyn J. Wells, Guam; Ellen M.T. 
                            Wells, Guam; Robert J. Wells, Guam; Louise 
                            Benally, Arizona; Aaron Naputi Smith, 
                            Arizona; Manuel Pino, Arizona; Anthony M. 
                            Anderson, California; AngelaBau, 
                            California; Harvey A. Baum, California; 
                            Erica Benton, California; Jon Blas, 
                            California; William E. Boatman, Jr., 
                            California; Vivian Bryan, California; 
                            Charleen Caabay, California; Michael S. 
                            Campos, California; Shauna Castro, 
                            California; Frank Castro, California; 
                            Trinita Cataluna-Saldana, California; 
                            Martha Cavazos, California; Joannie Chang, 
                            California; Mijoung Chang, California; 
                            Marilyn Cornwell, California; Robert 
                            Cortez, California; Hope Antoinette 
                            Cristobal, California; Mike Cruz, 
                            California; Tina Cruz California; Adrian 
                            Cruz, California; Gwen D'Arcangelis, 
                            California; Norma I. Del Rio, California; 
                            Davin Diaz, California; Vicente P. Diaz, 
                            Jr., California; Martha Duenas, California; 
                            Kalikia Dugger, California; Khoan Duong 
                            California; James Eilers, California; Fred 
                            Fermin, California; Roslynn Flores, 
                            California; Ross Frank, California; Jose 
                            Fuste California; Jeanette Gandionco Lazam, 
                            California; Patti Garcia California; Teri 
                            Gonzales, California; Donald S. Havis, 
                            California; Alex Heeger, California; Liza 
                            Ibanez, California; Brian John Ignacio, 
                            California; CJ Jiang, California; Keith 
                            Kamasugi, California; Boyoung Kim, 
                            California; Amie Kim, California; Yvette 
                            Koch, California; Emalyn Lapus, California; 
                            Janet Lau, California; Christina Leano, 
                            California; Sun H. Lee, California; 
                            Christine Lipat, California; Michael Lujan 
                            Bevacqua, California; Jack Lujan Bevacqua, 
                            California; Rita Lujan Butler, California; 
                            Josette Marie Lujan Quinata, California; 
                            Kristan M. Lynch, California; Trisha 
                            Manibusan, California; Martha Matsuoka, 
                            California; Tita Mesa-Smith, California; 
                            Wayne Miller, California; Jesse Mills, 
                            California; June Miyamoto, California; 
                            Nobuko Mizoguchi, California; Roy Molina, 
                            California; Marie Morohoshi, California; 
                            Markley Morris, California; Joi Morton-
                            Wiley, California; Lesli Mosley, 
                            California; Dason Murakami, California; 
                            Leiana Naholowaa, California; Kerri Ann 
                            Naputi Borja, California; Tiffany-Rose 
                            Naputi Lacsado, California; Michael Novick, 
                            California; Jacqueline Orpilla, California; 
                            Susan Ozawa, California; Alison Paskal, 
                            California; Alfred Peredo Flores, Jr., 
                            California; Sabina Perez, California; Peter 
                            J. Perez, California; Dr. Michael P. Perez, 
                            California; Thomas Phelan, California; Jo 
                            Ann Quenga Ignacio, California; Ana 
                            Richards, California; Nick Richards, 
                            California; Stefanie Ritoper, California; 
                            Amy Elizabeth Robinson, California; Natasha 
                            Saelua, California; Joevana Santos, 
                            California; Rita Setpaul, California; Alma 
                            Soongi Beck, California; Destiny Tedtaotao, 
                            California; Desiree Thompson, California; 
                            Jesse Torres, California; Thu-ha Tran, 
                            California; Michael Tuncap, California; 
                            Joyce Umamoto, California; Amy Vanderwaker, 
                            California; Karen Villanueva, California; 
                            Tammy Vo, California; Teresa Vo California; 
                            Thomas Vo, California; Sottolin Weng, 
                            California; Sharon Yamanaka, California; J. 
                            Kehualani Kauanui, Ph.D., Connecticut; Yi-
                            Chun Tricia Lin, Connecticut; September 
                            Hopkins, Georgia; Alexis Kargl, Georgia; 
                            Nancy Aleck, Hawaii; Johanna F. Almiron, 
                            Hawaii; Robert F. Bevacqua, Ph.D., Hawaii; 
                            Norman Brindo-Vas, Hawaii; Kate Bryant-
                            Greenwood, Hawaii; Laura Edmunds, Hawaii; 
                            Ronald Fujiyoshi, Hawaii; Kari Gerardo, 
                            Hawaii; Virginia Hench, Hawaii; Kawika 
                            Huihui Ka'ai, Hawaii; Kari Kaloi, Hawaii; 
                            Terrilee Keko'olani Ku'e Ho'omau, Hawaii; 
                            Jasmine King, Hawaii; Liula Kotaki Hawaii; 
                            Patricia, Malia Kekoolani-Tully, Hawaii; 
                            Julia Matsui Estrella, Hawaii; Doris 
                            Oshiro, Hawaii; Brandon Segal, Hawaii; 
                            Susan Serran Hawaii; Pete Shimazaki Doktor, 
                            Hawaii; Maria Smith, Hawaii; Tessie Vo, 
                            Hawaii; Melvin Won Pat-Borja, Hawaii; Minda 
                            Yamaga, Hawaii; Nicole Carroccio, Illinois; 
                            K. Chan, Illinois; Maria Cruz, Illinois; 
                            RoseAna Laguana, Illinois; Mary Ellen, 
                            Rosemeyer, Illinois; Gina Warwick, 
                            Illinois; Angela Smith, Indiana; Willard 
                            Warwick, Indiana; Peggy Warwick, Indiana; 
                            Elizabeth Crowe, Kentucky; Daniel Domaguin, 
                            Kentucky; Bruce Gagnon, Maine; Ellen E. 
                            Barfield, Maryland; Jane Sarah MacFarlane, 
                            Massachussetts; Jonathan J.P. Cabrera, 
                            Massachussetts; Roxana Llerana-Quinn, 
                            Massachussetts; David W. Trimble, Ph.D., 
                            Massachussetts; Adelwisa L. Agas Weiler, 
                            Michigan; Ana Bautista, Michigan; Kealani 
                            Cook, Michigan; Vince Diaz, Michigan; Cara 
                            Flores Mays, Michigan; Monica Kim, 
                            Michigan; Ijun Lai, Michigan; Cynthia 
                            Marasigan ,Michigan; Nadine Naber, 
                            Michigan; Dean Saranillio, Michigan; Sarita 
                            See, Michigan; Christine Taitano DeLisle, 
                            Michigan; Lani Teves, Michigan; Ahimsa 
                            Timoteo Bodhran, Michigan; Floyd Sands, 
                            Nevada; Roderick Ventura, New Mexico; Karen 
                            Balogh, New York; Tressa P. Diaz, New York; 
                            Kelly Dietz, New York; Melissa Francisco, 
                            New York; Adrianna, Garriga Lopez, New 
                            York; Amanda Gima, New York; Donna Hofsess, 
                            New York; Ron Hofsess, New York; Elaine 
                            Kim, New York; Thea Tagle, New York; Daniel 
                            Tam-Claiborne, New York; Amelia Toledo, New 
                            York; Kim Strong, North Carolina; Rebecca, 
                            Weaver-Hightower, North Dakota; Yoshiko 
                            Ikuta, Ohio; Kim Meinert, Ohio; Laurel 
                            Monnig, Ohio; C. Tolentino, Ohio; Jerry 
                            Ledesma, Oregon; Jaye Sablan, Oregon; Tammy 
                            Vo, Oregon; Ismael Guadalupe Ortiz, Puerto 
                            Rico; Robert Rabin Siegal, Puerto Rico; 
                            Catherine Lutz, Rhode Island; Dan Taulapapa 
                            McMullin, Samoa; Lara Cushing, Texas; Bryan 
                            Gumabon, Texas; Jill Johnston, Texas; 
                            Eduardo Longoria, Texas; Helen Dolores S. 
                            Onedera, Texas; Charles P.S. Onedera, 
                            Texas; Genaro Rendon, Texas; Ruben Solis, 
                            Texas; Dr. Jeffrey Geiger,United Kingdom; 
                            Trinisha B. Paxton, Virginia; Ursula 
                            Herrera, Washington; Marie Hyatt, 
                            Washington; Maria Eugenia Leon, Guerrero, 
                            Washington; Marian Macapinlac, Washington; 
                            Vince Bernard Queja Manibusan, Washington; 
                            Juan Quintanilla, Washington; Doreen Grace 
                            San Nicolas, Washington; Annette Brownlie, 
                            Australia; Denis Doherty, Australia; Dr. 
                            Zohl de Ishtar, Australia; Vikki John, 
                            Australia; Andrew Johnson, Australia; 
                            Tracey Makamae, Australia; Diane 
                            Williamson, Australia; Vanessa Ingle 
                            Warheit, Canada; Anna Phillips, Canada; Gus 
                            Kaipat, CNMI; Peter Emberson, Fiji; Marie-
                            Pierre Hazera, Fiji; Rex Rumakiek, Fiji; 
                            Ema Tagicakibau, Fiji; Luse Tamani, Fiji; 
                            Tupou Vere, Fiji; Axel Bietz, Germany; Dr. 
                            D. Roy Laifungbam, India; Masahiko Aoki, 
                            Japan; Yasukatsu Matsushima, Japan; Tadashi 
                            Okanouchi, Japan; Yoshikazu Makishi 
                            Okinawa, Japan; Rin Shimabukuro, Okinawa 
                            Japan; Sunao Tobaru, OkinawaJapan; Hideki 
                            Yoshikwa, Okinawa Japan; Shoko Oshiro, 
                            Okinawa Japan; Myrla B. Baldonado, 
                            Philippines; Mary Ann Manahan, Philippines; 
                            Bobby Montemayor, Philippines; Corazon 
                            Valdez-Fabros, Philippines; O'lola Ann 
                            Zamora Olib, Philippines; David Cano, 
                            Spain; Mia Eriksson, Sweden; Hillary, 
                            Acfalle; Arianna, Agustin; James Agustin; 
                            Ann Ames; Krystle Arceo; Robert Arizala; 
                            Robert F. Armstrong; Karl Bandemer; Ellen 
                            Bepp; Alejandra Bergemann; Ramon Calhoun; 
                            Sean Casey; Antoinette Charfauros; McDaniel 
                            Jullyn Chargualaf; Brian Chen; Will 
                            Chiapella; C.S. Corona; Jenna Crisostomo; 
                            Maria G. Cruz; JacobCruz; Cathy Dang; Lisa 
                            De Mello; Adam Paul Diego; Michelle Dimeo; 
                            Herbert Docena; Joseph A. Galura; 
                            RicahGuzman; A.M. Hart; Jason Hofsess; 
                            David W. Holtzen; Joanne Hsu; Mark Kelker; 
                            Francis Kintz; Krissi Koch; Emily Leach; 
                            Rashne Limki; Rebekah Logan; Jesse Lokahi 
                            Heiwa; Maria Manglona; Claire Manglona; 
                            Shawn Manglona; Joseph Manglona; Lourdes 
                            Manglona; Marisol Mangual; Karlene 
                            Mantanona; Frank Martinez; Lauren Mazur; 
                            Gwendolyn Mendiola; Nicholas E. Merz; Brad 
                            Millhouse; Kimi Mojica; Angela Morrill; 
                            Sherlina Nageer; Susan Najita; Sr. Chau 
                            Ngheim; Nate Nill; Mo Nishida; Norine 
                            Nishimura; Edward O'Connor; Barbara 
                            O'Malley; Stacey Parsons; J. Podis; Mary 
                            Prophet; Joann Ptaszynski; Hope Punsalan; 
                            Susan Riva Enteen; Elizabeth Rodrigues; 
                            Janet Rosen; Kiri Sailata; Arlene Salas; 
                            Roberta Sharples; Jessica Smith; Mari Rose 
                            Taruc; Laurie Tochiki; Xavier Turner; Ilana 
                            Turoff; Christopher Unchangco; Marlena 
                            Vergara; Thomas R. Wasson; Sally Webber; 
                            Michael Whang; Abbey Wolfe; Huei-Chen Yan; 
                            David Zebker.
                                 ______
                                 
               To: Members of the United States Congress

    We, the undersigned, oppose the fact that the people of Guam have 
not been included in the deliberations of the U.S. government and its 
elite partners regarding the scheduled transfer of 8,000 U.S. Marines 
from Okinawa to Guam as part of a major explosion of the U.S. military 
personnel population on Guam, now set at 35,000. This buildup will have 
enormous environmental, social, cultural, long-term economic and 
political consequences in our community. Currently, a host of issues 
i.e. radioactive contaminations that cause record-high rates of cancers 
and dementia-related illness that have yet to be addressed by the same 
military now expanding its presence in Guam. The way in which the 
current military buildup is happening calls attention to a harmful 
power imbalance between the U.S. federal government and Guam, which 
must be addressed.
    Sincerely,
                    Blaine Afaisen, Guam; Josita B. Aguon, Guam; Julian 
                            Aguon, Guam; Annette Aguon, Guam; Paul 
                            Aguon, Guam; Antonio Artero Sablan, Guam; 
                            Lisa Baza, Guam; Carmen Borja, Guam; Mar-
                            Vic Cagurangan, Guam; Patrick Camacho, 
                            Guam; Julius Cena, Guam; Hoi Yin Jessica 
                            Chan, Guam; Norita K. Charfauros, Guam; 
                            Elle Craigq, Guam; Adrian Cruz, Guam; 
                            Lourdes B. Cruz, Guam; Lawrence J. 
                            Cunningham, Guam; Vivian Dames, Guam; Brida 
                            Davis, Guam; Moneka De Oro, Guam; Macylyn 
                            Duenas, Guam; Sirena Duenas, Guam; Eileen 
                            Escalera, Guam; Timothy Fedenko ,Guam; 
                            Monaeka Flores, Guam; Cathy SN Flores, 
                            Guam; Angel Garces, Guam; Anthony C. 
                            Garces, Guam; Angela Garcia Lorenzo, Guam; 
                            Gary Heathcote, Guam; Christine Hecita, 
                            Guam; William Hernandez, Guam; Lourdes B. 
                            Hongyee, Guam; Omar O. Jarquin, Guam; 
                            Shirley Lee, Guam; Mildred Lujan, Guam; 
                            Joseph V. Lujan, Guam; Jonathan Daniel 
                            McIntyre Toves ,Guam; April Manibusan, 
                            Guam; Charissa Manibusan Aguon, Guam; Lee 
                            Martinez, Guam; Kenneth J. Mesa, Guam; 
                            Jennifer Muna Aguon, Guam; Antonette Muna-
                            Santos, Guam; Chelsa D. Muna-Brecht, Guam; 
                            Shannon Murphy, Guam; Jessica Nangauta, 
                            Guam; James Nangauta, Guam; LisaLinda 
                            Natividad, Guam; Dominic Perez, Guam; 
                            Celeste Perez Mercado, Guam; James Perez 
                            Viernes, Guam; Debbie Quinata, Guam; Allan 
                            Quinata, Guam; Cheryl Ann Quintanilla, 
                            Guam; Kaitlin Reed, Guam; Leslie Reynolds 
                            Guam; Daniel L. Robertson, Guam; Gene 
                            Rojas, Guam; Angela Sablan, Guam; Peter-
                            Joseph San Nicolas, Guam; Susanna Schlub, 
                            Guam; Lucas A. Storts, Guam; Salome 
                            Taijeron, Guam; Christina Thai Serencio, 
                            Guam; William Topasna, Guam; Trini Torres, 
                            Guam; Ana Maria Won Pat-Borja, Guam; Melvin 
                            Won Pat-Borja, Guam; Melanie Aguon Chaney, 
                            California; Bernadette Balauro, California; 
                            Erica Benton, California; Deena Benton, 
                            California; Keith L. Camacho, California; 
                            Barbara Cepeda-Adams, California; Annabelle 
                            L. Cruz, California; Amanda D'Ambrosio-
                            Akau, California; Martha Duenas Baum, 
                            California; Lisa Fu, California; Jordan 
                            Gonzalez, California; Migetu Gumataotao 
                            Tuncap, California; Alex Heeger, 
                            California; Suzanne Joi, California; Miho 
                            Kim, California; Dr. Christopher Knaus, 
                            California; Brandon Lee, California; Sun H. 
                            Lee, California; John Lindsay-Poland, 
                            California; Michael Lujan Bevacqua, 
                            California; Josette Marie Lujan, Quinata 
                            California; Nobuko Mizoguchi, California; 
                            Mo Nishida, California; Marina L. Ortega, 
                            California; David Palaita, California; 
                            Aaron Pedroni, California; Alfred Peredo 
                            Flores, Jr., California; Sabina Perez, 
                            California; Peter J. Perez, California; 
                            Lyle Prijoles, California; Tagi Qolouvaki, 
                            California; Kristen Sajonas, California; 
                            Jamela Santos, California; Masano Seo, 
                            California; Nu'u Tafisi, California; 
                            William Ta'ufo'ou, California; Trangdai 
                            Tranguyen, California; Wesley Ueunten, 
                            California; Robert A. Viernes, California; 
                            Anna Vining, California; Sharon Yamanaka, 
                            California; Monica Spain, Florida; Robert 
                            Akamine, Hawaii; Elsha Bohnert, Hawaii; 
                            Elma Coleman, Hawaii; Donna Davis Hackley, 
                            Hawaii; Stephen Dinion, Hawaii; Dr. Keola 
                            G.A. Downing, Ph.D., Hawaii; Ronald 
                            Fujiyoshi, Hawaii; Yvonne L. Geesey, 
                            Hawaii; Brian Gotanda, Hawaii Kyle 
                            Kajihiro, Hawaii; Rita K. Kanui, Hawaii; 
                            Malina Koani-Guzman, Hawaii; Brenda Kwon, 
                            Hawaii; Viviane Lerner, Hawaii; Patricia 
                            Malia Keko'olani, Hawaii; Julia Matsui 
                            Estrella, Hawaii; Rev. Brian J. McCreanor, 
                            Hawaii; Asami Miyazawa, Hawaii; A. Leimaile 
                            Quiteivis, Hawaii; Ann Otteman, Hawaii; 
                            Andre Perez, Hawaii; Barbara Grace Ripple, 
                            M.Div., Hawaii; Adam K. Robinson, Hawaii; 
                            Darlene Rodrigues, Hawaii; Richard M. 
                            Rodrigues, Jr., Hawaii; Puanani Rogers, 
                            Hawaii; Brandon Segal, Hawaii; Pete 
                            Shimazaki Doktor, Hawaii; Evan Silberstein, 
                            Hawaii; Sean Smith, Hawaii; Kihei Soli 
                            Niheu, Hawaii; Michael E. Smith, Hawaii; 
                            Ka'ano'I Walk, Hawaii; Gabrielle Welford, 
                            Hawaii; John Witeck, Hawaii; Maureen Shank, 
                            Indiana; Willard J. Warwick, Indiana; Ellen 
                            E. Barfield, Maryland; Lily Chan, 
                            Massachussetts; Dr. Joseph Gerson, 
                            Massachussetts; Ahimsa Timoteo Bodhran, 
                            Michigan; Joyce Nangauta, New Mexico; 
                            Annmaria Shimabuku, New York; Billie Anne 
                            Walker, North Carolina; Douglas Wingeier, 
                            North Carolina; Yoshiko Ikuta, Ohio; 
                            Chelsea W. Steed, Oregon; Catherine Lutz, 
                            Rhode Island; Jill Johnston, Texas; Ann 
                            Santos, Texas; Elisabeth Hebert, Vermont; 
                            Tommy Benavente, Washington; Professor Rick 
                            Bonus, Washington; David Gumataotao Tuncap, 
                            Washington; Marie E. Hyatt, Washington; Ann 
                            Kittredge, Washington; Chaz Pangelinan, 
                            Washington; Carmen Ramento, Washington; 
                            Davey Tuncap, Washington; Robert Wilmette, 
                            Washington; Terese Tuncap, Washington; Jim 
                            Winkler, Washington, D.C.; Carol L. 
                            Reuther, West Virginia; Jeff Seager, West 
                            Virginia; Heather Bond, Australia; Barb 
                            Crossing, Australia; Julie Edwards, 
                            Australia; Eveline Goy, Australia; Rosemary 
                            House, Australia; Glenn House, Australia; 
                            Morgan King Australia; Laura Kittel, 
                            Australia; Betty McLellan, Australia; Lynda 
                            Moylan, Australia; Liz Olle, Australia; 
                            Angela Piluris, Australia; Mary Robertson, 
                            Australia; Madge Sceriha, Australia; Helen 
                            Sheehy, Australia; Glenn Manglona, CNMI; 
                            Mosmi Bhim, Fiji; Michele McConnell-Wilson, 
                            Fiji; Thomi Tsolme, Indonesia; Ahmad 
                            Abdollahzadeh, Iran; Jun Chisaka, Japan; 
                            Seiko Echigo, Japan; Filo Hirota, Japan; 
                            Kim Hyemija, Japan; Yoshiko Ikuta, Japan; 
                            Fumie Kakita, Japan; Eunja Lee, Japan; 
                            Takenobu Niioka, Japan; Mari Sasabe, Japan; 
                            Daisy Alik-Momotaro Marshall, Islands; Paul 
                            De Rungs, New Zealand; Bonnie Flaws, New 
                            Zealand; Lalita Heymanns, New Zealand; 
                            Edwina Hughes, New Zealand; Maire 
                            Leadbeater, New Zealand; Claire Lefevre, 
                            New Zealand; Hamish Low, New Zealand; 
                            Jennifer Margaret, New Zealand; Ian 
                            Ritchie, New Zealand; Tanja Schwalm, New 
                            Zealand; Nicola Simmonds, New Zealand; 
                            Elena Young, New Zealand; Valtimore Borjel 
                            Fenis, Philippines; Ching Borres, 
                            Philippines; Mariam H. Camaso, Philippines; 
                            Greg Fabros, Philippines; Aleli Marcelino, 
                            Philippines; Sister Arnold Noel, 
                            Philippines; Jesus B. Tardo, Jr., 
                            Philippines; Corazon Valdez-Fabros, 
                            Philippines; O'lola Ann Zamora Olib, 
                            Philippines; Cheryl Adam; A. Farouk 
                            Alfakhrany; Carlton Baker; Kate Baltazar 
                            Aguon; Malia Bell; Ann Borja; Monica 
                            Brindle; Dianne Burnham; Nick Calo; Edoardo 
                            Carlo Montemayor; Cheryl Cash; Shannan 
                            Chan; Violeta Clet Mendoza; Moira Coleman; 
                            Sarah Cruz; Ernestina Cruz; Sasha Davis; 
                            Herbert Docena; Katharine Dominguez; 
                            Adrianne Earp; Daniel Enskat; Patricia 
                            Fifita; Vanessa Gesto; Peter Guerrero; 
                            Barbara Guerrero Cepeda-Adams; Anthony 
                            Haile Sellassie; Junazon L. Hautea; Ruth 
                            Heeger; Jennifer Hollingshead; QB Keju; 
                            Jasmine King; Marzban P. Limki; Pheroza 
                            Limki; Betty Loumoli; Bong Maglaqui; Amenta 
                            Matthew; Kate McDermott; Jen Mitchell; 
                            Harvey M. Nakamoto, Jr.; Lucien M. Noe; 
                            Madonna Perez; Janie Poe; Hope Punsalan; 
                            Clara Rabauliman; Amy Elizabeth Robinson; 
                            Sharon Rose Dadang; Christina Sablan; 
                            Christopher Santos; Rebecca Serrano; Tanie 
                            L. Suano; Sam Suen; Misipouena Tagaloa; 
                            Jason Taitano; Sophie Taptiklis; Jasmin 
                            Thana; Kozue Uehara; Filifotu Vaai; 
                            Margaret Warwick; Kevin Wehman; William 
                            Whitman; Ahtoy Won Pat-Borja; JoAnn Yoon 
                            Fukumoto.

</pre></body></html>
